                         Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                             58419

   Dated: October 19, 1999.                      The purpose of the Town Hall              at jsheridan@hcfa.gov, no later than
John Parmigiani,                              meeting is to convene dialogue on            November 15, 1999.
HCFA Reports Clearance Officer, HCFA Office   criteria for Medicare coverage of               We will accept written questions,
of Information Services, Security and         facilities to perform organ transplants,     comments, or other materials from
Standards Group, Division of HCFA             including the possibility of additional      individuals or individual organizations
Enterprise Standards.                         rulemaking. Discussion of other              either before the meeting, or up to 14
[FR Doc. 99–28382 Filed 10–28–99; 8:45 am]    controversial transplant-related issues,     days after the meeting. Individuals who
BILLING CODE 4120–03–P                        such as organ allocation policies, organ     wish to submit comments must do so by
                                              donation policies, or standards for organ    mail to the Health Care Financing
                                              procurement organizations, will not be       Administration, Attention: Jacqueline
DEPARTMENT OF HEALTH AND                      permitted at this meeting due to time        Sheridan, Office of Clinical Standards
HUMAN SERVICES                                constraints. We anticipate attendance by     and Quality/CAG, Room S3–02–01,
                                              national professional medical                7500 Security Boulevard, Baltimore,
Health Care Financing Administration          organizations; staff of hospitals that       Maryland 21244–1850; or by FAX at
[HCFA–3026–N]                                 currently perform transplants; experts in    (410) 786–9286; or by e-mail at
                                              technology assessment, health policy,        jsheridan@hcfa.gov.
Medicare Program; Open Town Hall              and clinical research; other Federal            There is no special format for the
Meeting To Discuss Transplant Center          agencies; managed care organizations;        materials; however, we request that
Criteria                                      transplant recipients and their families;    commenters be clear about the issue or
AGENCY: Health Care Financing                 and other members of the public with         aspect of the proposed process on which
Administration (HCFA), HHS.                   an interest in transplants.                  they have a question, comment, or
                                                 The format for the meeting will be        suggestion.
ACTION: Notice of meeting.
                                              four subject-related panel presentations        Individuals may access information
SUMMARY: This notice announces a              followed by an opportunity for               regarding the agenda and schedule of
meeting to convene all parties interested     comments from the audience. The panel        presentations on our home page
in providing input to our Medicare            topics will include (1) aspects of center    (www.hcfa.gov/quality/8b.htm).
coverage policy pertaining to criteria for    performance that should be considered          Authority: Secs. 1102 and 1871 of the
approving organ transplant facilities.        in determining coverage; (2)                 Social Security Act (42 U.S.C. 1302 and
This meeting represents one aspect of         methodology for outcome measures; (3)        1395hh).
the evolving process for making the           data; and (4) target thresholds. It is our   (Catalog of Federal Domestic Assistance
coverage reviews more open and                intent for invited panelists to stimulate    Program No. 93.773, Medicare—Hospital
responsive to the public.                     further discussion based on the              Insurance; and Program No.93.774,
DATES: The meeting is scheduled for           presentations. This discussion will be       Medicare—Supplementary Medical
                                              free-flowing and will not result in          Insurance)
Wednesday, December 1, 1999 from
8:30 a.m. until 5 p.m., eastern standard      consensus statements or a set of               Dated: October 13, 1999.
time.                                         advisory recommendations.                    Michael M. Hash,
ADDRESSES: The meeting will be held in           The meeting is open to the public, but    Deputy Administrator, Health Care Financing
                                              attendance is limited to space available.    Administration.
the Health Care Financing
Administration Main Auditorium, 7500          We encourage individuals to register         [FR Doc. 99–28400 Filed 10–28–99; 8:45 am]
Security Boulevard, Baltimore,                early to secure availability and allow       BILLING CODE 4120–01–P

Maryland 21244.                               time for receipt of background materials.
FOR FURTHER INFORMATION CONTACT:              Individuals must register in advance as
Jacqueline Sheridan, (410) 786–4635.          described below.                             DEPARTMENT OF HEALTH AND
SUPPLEMENTARY INFORMATION:
                                                                                           HUMAN SERVICES
                                              Registration
Background                                      Casals and Associates, Incorporated in     Office of Inspector General
  Medicare currently covers heart, liver,     Alexandria, Virginia will handle
                                                                                           Draft OIG Compliance Program
and lung transplants only in facilities       registration for the meeting. Individuals
                                                                                           Guidance for Nursing Facilities
that meet the following specified             may register by contacting Alison
criteria, which are similar for the three     Holder at Casals and Associates,             AGENCY: Office of Inspector General
organ types: Patient selection criteria,      Incorporated by FAX at (703) 920–5750,       (OIG), HHS.
patient management protocols,                 or by mail at Casals and Associates,         ACTION: Notice and comment period.
commitment of resources and planning,         Incorporated, 1199 North Fairfax Street,
facility resources, experience and            Alexandria, Virginia 22314. Registrants      SUMMARY:    This Federal Register notice
survival, agreement to maintain data,         must provide their name, title, firm         seeks the comments of interested parties
agreement with organ procurement              name, address, telephone number, FAX         on draft compliance guidance
organizations, and laboratory services.       number, and Internet electronic mail         developed by the Office of Inspector
(We published three notices in the            address (if applicable).                     General (OIG) for nursing facilities.
Federal Register related to our criteria        Casals and Associates, Incorporated        Through this notice, the OIG is setting
for Medicare coverage of heart, liver,        will provide all registrants with a          forth its general views on the value and
and lung transplants, respectively, as        confirmation packet and background           fundamental principles of nursing
follows: April 6, 1987 (52 FR 10935);         papers before the meeting.                   facilities’ compliance programs, and the
April 12, 1991 (56 FR 15006); and               Participants who wish to display an        specific elements that nursing facilities
February 2, 1995 (60 FR 6537).) These         exhibit or make a presentation at the        should consider when developing and
criteria have been in place for many          meeting must contact Connie Conrad at        implementing an effective compliance
years and need to be reevaluated              (410) 786–4631 or via e-mail at              program.
because of advancements in the area of        cconrad@hcfa.gov, or Jacqueline              DATE: To assure consideration,
organ transplants.                            Sheridan at (410) 786–4635 or via e-mail     comments must be delivered to the
58420                   Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices

address provided below by no later than      and Special Fraud Alerts. In addition,      industry.1 This compliance guidance is
5 p.m. on November 29, 1999.                 we have also taken into account past        intended to assist nursing facilities 2
ADDRESSES: Please mail or deliver            and recent fraud investigations             develop and implement internal
written comments to the following            conducted by the OIG’s Office of            controls and procedures that promote
address: Office of Inspector General,        Investigations and the Department of        adherence to applicable statutes and
Department of Health and Human               Justice, and have consulted with the        regulations of the Federal health care
Services, Attention: OIG–5P–CPG, Room        Health Care Financing Administration.       programs 3 and private insurance
5246, Cohen Building, 330                      This draft guidance for nursing           program requirements. Compliance
Independence Avenue, SW,                     facilities contains seven elements that     programs strengthen Government efforts
Washington, DC 20201.                        the OIG has determined are                  to prevent and reduce fraud and abuse,
  We do not accept comments by               fundamental to an effective compliance      as well as further the mission of all
facsimile (FAX) transmissions. In            program:                                    nursing facilities to provide quality care
commenting, please refer to file code          • Implementing written policies;          to their residents.
OIG–5P–CPG. Comments received                  • Designating a compliance officer           Through this document, the OIG
timely will be available for public          and compliance committee;                   provides its views on the fundamental
inspection as they are received,                                                         elements of nursing facility compliance
generally beginning approximately 2            • Conducting effective training and
                                             education;                                  programs, as well as the principles that
weeks after publication a document, in                                                   each nursing facility should consider
Room 5541 of the Office of Inspector           • Developing effective lines of
                                                                                         when developing and implementing an
General at 330 Independence Avenue           communication;
                                                                                         effective compliance program. While
SW., Washington, DC 20201 on Monday            • Conducting internal monitoring and      this document presents basic procedural
through Friday of each week from 8:00        auditing;                                   and structural guidance for designing a
a.m. to 4:30 p.m.                              • Enforcing standards through well-       compliance program, it is not in and of
FOR FURTHER INFORMATION CONTACT:             publicized disciplinary guidelines; and     itself a compliance program. Rather, it is
Lewis Morris, Office of Counsel to the         • Responding promptly to detected         a set of guidelines that nursing facilities
Inspector General, (202) 619–2078.           offenses and developing corrective          should consider when developing and
SUPPLEMENTARY INFORMATION:
                                             action.                                     implementing a compliance program.
                                               These elements are contained in              Implementing an effective compliance
Background                                   previous guidances issued by the OIG.       program in a nursing facility may
   The creation of compliance program        As with previously issued guidances,        require a significant commitment of
guidance is a major initiative of the OIG    this draft compliance program guidance      time and resources by all parts of the
in its effort to engage the private health   represents the OIG’s suggestions on how     organization. However, superficial
care community in combating fraud and        nursing facilities can best establish       efforts or programs that are hastily
abuse. In the last several years, the OIG    internal controls and prevent fraudulent    constructed and implemented without a
has developed and issued compliance          activities. The contents of this guidance   long-term commitment to a culture of
program guidance directed at the             should not be viewed as mandatory or        compliance will likely be ineffective
following segments of the health care        as an exclusive discussion of the           and may expose the nursing facility to
industry: the hospital industry; home        advisable elements of a compliance          greater liability than if it had no
health agencies; clinical laboratories;      program; the document is intended to
third-party medical billing companies;       present voluntary guidance to the              1 Currently, the Office of Inspector General has
the durable medical equipment,               industry and not represent binding          issued compliance program guidances for the
prosthetics, orthotics and supply            standards for nursing facilities.           following six industry sectors: hospitals, clinical
industry; and hospices. The                                                              laboratories, home health agencies, durable medical
development of these types of                Public Input and Comment in                 equipment suppliers, third-party medical billing
                                             Developing Final Guidance                   companies and hospices. Over the next year, the
compliance program guidance is based                                                     OIG plans to issue compliance guidances for
on our belief that a health care provider      In an effort to ensure that all parties   Medicare+Choice organizations offering
can use internal controls to more            have an opportunity to provide input        coordinated care plans, ambulance companies and
                                                                                         small group physician practices.
efficiently monitor adherence to             into the OIG’s guidance, we are                2 For the purpose of this guidance, the term
applicable statutes, regulations and         publishing this guidance in draft form.     ‘‘nursing facility’’ includes a skilled nursing facility
program requirements.                        We welcome any comments from                (SNF) and a nursing facility (NF) organization that
   Copies of these compliance program        interested parties regarding this           meet the requirements of sections 1819 and 1919 of
guidances can be found on the OIG                                                        the Social Security Act (Act), respectively, 42
                                             document. The OIG will consider all         U.S.C. 1395i-3 and 42 U.S.C. 1396r. Where
website at http://www.hhs.gov/oig.           comments that are received within the       appropriate we distinguish between SNFs and other
Developing Draft Compliance Program          above-cited time frame, incorporate any     facilities.
Guidance for Nursing Facilities              specific recommendations as                    3 The term ‘‘Federal health care programs,’’ as

                                             appropriate, and prepare a final version    defined in 42 U.S.C. 1320a–7b(f), includes any plan
  On December 18, 1998, the OIG                                                          or program that provides health benefits, whether
                                             of the guidance thereafter for              directly, through insurance, or otherwise, which is
published a solicitation notice seeking      publication in the Federal Register.        funded directly, in whole or in part, by the United
information and recommendations for                                                      States Government (i.e., via programs such as
developing formal guidance for nursing       Draft Compliance Program Guidance           Medicare, Federal Employees Health Benefits Act,
facilities (63 FR 70137). In response to     for Nursing Facilities                      Federal Employees’ Compensation Act, Black Lung,
                                                                                         or the Longshore and Harbor Worker’s
that solicitation notice, the OIG received   I. INTRODUCTION                             Compensation Act) or any State health plan (e.g.,
16 comments from various outside                                                         Medicaid, or a program receiving funds from block
sources. In developing this notice for         The Office of Inspector General (OIG)     grants for social services or child health services).
formal public comment, we have               of the Department of Health and Human       In this document, the term ‘‘Federal health care
                                             Services (DHHS) continues in its efforts    program requirements’’ refers to the statutes,
considered those comments, as well as                                                    regulations and other rules governing Medicare,
previous OIG publications, such as           to promote voluntarily implemented          Medicaid, and all other Federal health care
other compliance program guidances           compliance programs for the health care     programs.
                               Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                                                      58421

program at all.4 Although an effective                   duty to ensure that it is not submitting                 fraud and abuse from the operations of
compliance program may require a                         false or inaccurate claims to                            a nursing facility. However, a sincere
reallocation of existing resources, the                  Government and private payers, a                         effort by the nursing facility to comply
long-term benefits of establishing a                     nursing facility may gain numerous                       with applicable statutes and regulations
compliance program significantly                         additional benefits by voluntarily                       as well as Government and private
outweigh the initial costs. In short,                    implementing a compliance program.                       payer health care program requirements,
compliance measures are an investment                    The benefits may include:                                through the establishment of a
that advances the goals of the nursing                      • The formulation of effective                        compliance program, significantly
facility, the solvency of the Federal                    internal controls to assure compliance                   reduces the risk of unlawful or improper
health care programs, and the quality of                 with statutes, regulations and rules;                    conduct.
care provided to the nursing home                           • A concrete demonstration to
resident.                                                employees and the community at large                     B. Application of Compliance Program
   In a continuing effort to collaborate                 of the nursing facility’s commitment to                  Guidance
closely with health care providers and                   responsible corporate conduct;                              Given the diversity within the long-
the private sector, the OIG placed a                        • The ability to obtain an accurate                   term care industry, there is no single
notice in the Federal Register soliciting                assessment of employee and contractor                    ‘‘best’’ nursing facility compliance
comments and recommendations on                          behavior;                                                program. The OIG recognizes the
what should be included in this                             • An increased likelihood of                          complexities of this industry and is
compliance program guidance.5 In                         identifying and preventing unlawful                      sensitive to the differences among large
addition to considering these comments                   and unethical behavior;                                  national chains, regional multi-facility
in drafting this guidance, we reviewed                      • The ability to quickly react to                     operators, and small independent
previous OIG publications, including                     employees’ operational compliance                        homes. However, the elements of this
OIG Special Fraud Alerts and OIG                         concerns and effectively target resources                guidance can be used by all nursing
Medicare Advisory Bulletins, as well as                  to address those concerns;                               facilities to establish a compliance
reports issued by OIG’s Office of Audit                     • Improvement of the quality,                         program, regardless of size (in terms of
Services (OAS) and Office of Evaluation                  efficiency, and consistency of providing                 employees and gross revenue), number
and Inspections (OEI) affecting the                      services;                                                of locations, or corporate structure.
nursing home industry.6 In addition, we                     • A mechanism to encourage                            Similarly, a corporation that provides
relied on the experience gained from                     employees to report potential problems                   long term care as part of an integrated
fraud investigations of nursing home                     and allow for appropriate internal                       health care delivery system may
operators conducted by OIG’s Office of                   inquiry and corrective action;                           incorporate these elements into its
Investigations, the Department of                           • A centralized source for distributing               structure.9
Justice, and the Medicaid Fraud Control                  information on health care statutes,                        We recognize that some nursing
Units.                                                   regulations and other program                            facilities may not be able to adopt
                                                         directives;7                                             certain elements to the same degree that
A. Benefits of a Compliance Program                         • A mechanism to improve internal                     others with more extensive resources
   The OIG believes a comprehensive                      communications;                                          may achieve. At the end of several
compliance program provides a                               • Procedures that allow the prompt,                   sections of this document, the OIG has
mechanism that brings the public and                     thorough investigation of alleged                        offered suggestions to assist these
private sectors together to reach mutual                 misconduct; and                                          smaller nursing facility providers in
goals of reducing fraud and abuse,                          • Through early detection and                         implementing the principles expressed
improving operational functions,                         reporting, minimizing loss to the                        in this guidance. Regardless of size,
improving the quality of health care                     Government from false claims, and                        structure or available resources, the OIG
services, and reducing the cost of health                thereby reducing the nursing facility’s                  recommends that every nursing facility
care. Attaining these goals provides                     exposure to civil damages and penalties,                 should strive to accomplish the
positive results to the nursing facility,                criminal sanctions, and administrative                   objectives and principles underlying all
the Government, and individual citizens                  remedies.8                                               of the compliance polices and
alike. In addition to fulfilling its legal                  The OIG recognizes that the                           procedures in this guidance.
                                                         implementation of a compliance                              By no means should the contents of
  4 Recent case law suggests that the failure of a       program may not entirely eliminate                       this guidance be viewed as an exclusive
corporate director to attempt in good faith to                                                                    or complete discussion of the advisable
institute a compliance program in certain situations       7 Counsel to the nursing facility should be
may be a breach of a director’s fiduciary obligation.    consulted as appropriate regarding interpretation
                                                                                                                  elements of a compliance program. On
See, e.g., In re Caremark International Inc.             and legal analysis of laws related to the Federal        the contrary, the OIG strongly
Derivative Litigation, 698 A.2d 959 (Ct. Chanc. Del.     health care programs and laws related to fraud,          encourages nursing facilities to develop
1996).                                                   abuse and other legal requirements.                      and implement compliance elements
  5 See 63 FR 70137 (December 12, 1998) ‘‘Notice           8 The OIG, for example, will consider the
for Solicitation of Information and
                                                                                                                  that uniquely address the areas of
                                                         existence of an effective compliance program that
Recommendations for Developing OIG Compliance            pre-dated any governmental investigation when            potential problems, common concerns,
Program Guidance for the Nursing Home Industry.’’        addressing the appropriateness of administrative         or high risk areas that apply to their
  6 The OIG periodically issues advisory opinions        sanctions. However, the burden is on the nursing         own facilities. Furthermore, this
responding to specific inquiries concerning the          facility to demonstrate the operational effectiveness    guidance may be modified and
application of the OIG’s authorities and Special         of the compliance program. Further, the False
Fraud Alerts setting forth activities that raise legal   Claims Act, 31 U.S.C. 3729–3733, provides that a         expanded as more information and
and enforcement issues. These documents, as well         person who has violated the Act, but who                 knowledge is obtained by the OIG, and
as reports from OAS and OEI can be obtained on           voluntarily discloses the violation to the               as changes in the statutes, regulations
the Internet at: http://www.hhs.gov/oig. We also         Government within 30 days of detection, in certain       and rules of the Federal, State, and
recommend that nursing home providers regularly          circumstances will be subject to not less than
review the Health Care Financing Administration          double, as opposed to treble, damages. See 31            private health plans occur. New
(HCFA) website on the Internet at: http://               U.S.C. 3729(a). In addition, criminal sanctions may
www.hcfa.gov, for up-to-date regulations, manuals,       be mitigated by an effective compliance program            9 For example, this would include providers that

and program memoranda related to the Medicare            that was in place at the time of the criminal offense.   own hospitals, skilled nursing facilities, long-term
and Medicaid programs.                                   See note 11.                                             care facilities and hospices.
58422                         Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices

compliance practices also may be                       program, and who reports directly to the              policies and procedures should be
incorporated into this guidance if the                 owner(s), governing body and/or CEO; 12               developed under the direction and
OIG discovers enhancements that                           (3) The development and                            supervision of the compliance officer,
promote effective compliance.                          implementation of regular, effective                  the compliance committee, and
                                                       education and training programs for all               operational managers. At a minimum,
II. Compliance Program Elements
                                                       affected employees; 13                                they should be provided to all
A. The Seven Basic Compliance                             (4) The creation and maintenance of                employees who are affected by these
Elements                                               an effective line of communication                    policies, as well as physicians,
   The OIG believes that every effective               between the compliance officer and all                suppliers, nursing facility agents, and
compliance program must begin with a                   employees, including a process, such as               contractors who may affect or be
formal commitment10 by the nursing                     a hotline or other reporting system, to               affected by the nursing facility’s billing
facility’s governing body to address all               receive complaints, and the adoption of               and care functions.15 In addition to
of the applicable elements listed below,               procedures to protect the anonymity of                general corporate policies and
which are based on the seven steps of                  complainants and to protect whistle                   procedures, an effective compliance
the Federal Sentencing Guidelines.11                   blowers from retaliation;                             program should include specific
The OIG recognizes that full                              (5) The use of audits and/or other risk            policies and procedures for the different
implementation of all elements may not                 evaluation techniques to monitor                      clinical, financial, and administrative
be immediately feasible for all nursing                compliance, identify problem areas, and               functions of a nursing facility.
facilities. However, as a first step, a                assist in the reduction of identified
                                                       problems; 14                                          1. Code of Conduct
good faith and meaningful commitment
on the part of nursing facility                           (6) The development of policies and                   While a clear statement of policies
management will substantially                          procedures addressing the non-                        and procedures is at the core of a
contribute to the program’s successful                 employment or retention of excluded                   compliance program, the OIG
implementation. As the compliance                      individuals or entities; and the                      recommends that nursing facilities start
program is effectuated, that commitment                enforcement of appropriate disciplinary               the process with the development of a
should cascade down through                            action against employees or contractors               corporate statement of principles that
management to every employee and                       who have violated corporate or                        will guide the operations of the
contractor of the nursing facility.                    compliance policies and procedures,                   provider. One common expression of
   At a minimum, a comprehensive                       applicable statutes, regulations, or                  this statement of principles is the code
compliance program should include the                  Federal, State, or private payor health               of conduct.16
following seven elements:                              care program requirements; and                           The code should function in the same
   (1) The development and distribution                   (7) The development of policies and                fashion as a constitution, i.e., as a
of written standards of conduct, as well               procedures with respect to the                        foundational document that details the
as written policies, procedures and                    investigation of identified systemic                  fundamental principles, values, and
protocols that promote the nursing                     problems, which include direction                     framework for action within an
facility’s commitment to compliance                    regarding the prompt and proper                       organization. The code of conduct for a
(e.g., by including adherence to the                   response to detected offenses, such as                nursing facility should articulate the
compliance program as an element in                    the initiation of appropriate corrective              organization’s expectations of
evaluating managers and employees)                     action, repayments and preventive                     employees, as well as summarize the
and address specific areas of potential                measures.                                             basic legal principles under which the
fraud and abuse, such as claims                                                                              organization must operate. Unlike the
                                                       B. Written Policies and Procedures
development and submission processes,                                                                        more detailed policies and procedures,
quality of care issues facing residents,                 Every compliance program should                     the code of conduct should be brief,
and financial arrangements with                        develop and distribute written                        easily readable and cover general
physicians and outside contractors that                compliance standards, procedures and                  principles applicable to all employees.
may affect the health care provided to                 practices that guide the nursing facility                The code of conduct should be
beneficiaries;                                         and the conduct of its employees                      distributed to, and comprehensible by,
   (2) The designation of a compliance                 throughout day-to-day operations. These               all affected employees.17 Depending on
officer and other appropriate bodies
(e.g., a corporate compliance                             12 The roles of the compliance officer and the        15 According to the Federal Sentencing

committee), charged with the                           corporate compliance committee in implementing        Guidelines, an organization must have established
                                                       an effective compliance program are discussed         compliance standards and procedures to be
responsibility for developing, operating               throughout this guidance. However, the OIG            followed by its employees and other agents in order
and monitoring the compliance                          recognizes that the differences in the sizes and      to receive sentencing credit for an ‘‘effective’’
                                                       structures of nursing facilities may result in        compliance program. The Federal Sentencing
   10 A formal commitment may include a resolution     differences in the way in which compliance            Guidelines define ‘‘agent’’ as ‘‘any individual,
by the board of directors, owner(s), or president,     programs function.                                    including a director, an officer, an employee, or an
where applicable. Evidence of that commitment             13 Training and educational programs for nursing   independent contractor, authorized to act on behalf
should include the allocation of adequate resources,   facilities should be detailed, comprehensive and at   of the organization.’’ See United States Commission
a timetable, and the identification of an individual   the same time targeted to address the needs of        Guidelines, Guidelines Manual, 8A1.2, Application
to serve as a compliance officer or coordinator to     specific employees based on their responsibilities    Note 3(d).
ensure that each of the recommended and adopted        within the facility. Existing in-service training        16 The OIG strongly encourages the participation

elements is addressed. Once a commitment has           programs can be expanded to address general           and involvement of the nursing facility’s owner(s),
been established, a compliance officer should          compliance issues, as well as the risk areas          governing board, CEO, as well as other personnel
immediately be chosen to oversee the                   identified in that part of nursing home operations.   from various levels of the organizational structure
implementation of the compliance program.                 14 For example, periodically spot-checking the     in the development of all aspects of the compliance
   11 See United States Sentencing Commission          work of coding and billing personnel should be part   program, especially the standards of conduct.
Guidelines, Guidelines Manual, 8 A1.2, Application     of a compliance program. In addition, procedures      Management and employee involvement in this
Note 3(k). The Federal Sentencing Guidelines are       to regularly monitor the care provided nursing        process communicates a strong and explicit
detailed policies and practices for the Federal        facility residents and to ensure that deficiencies    commitment to all employees of the need to comply
criminal justice system that prescribe the             identified by surveyors are corrected should be       with the organization’s standards of conduct.
appropriate sanctions for offenders convicted of       incorporated into the compliance program’s               17 The code also should be distributed, or at least

Federal crimes.                                        evaluation and monitoring functions.                  available, to the residents and their families, as well
                               Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                                                   58423

the facility’s work force, this may mean                report problems, to ensure compliance,                 policies and procedures that are
that the code should be translated into                 and to rectify any prior noncompliance.                communicated to all appropriate
other languages when necessary and                         The OIG recognizes that most                        employees and contractors are the first
written at appropriate reading levels.                  facilities have in place policies and                  step in an effective compliance program.
Further, any employee handbook                          procedures to prevent fraud and abuse                     The OIG believes that sound operating
delineating the standards of conduct                    in their institutions. These providers                 compliance policies are essential to all
should be regularly updated to reflect                  may not need to develop a new,                         nursing facilities, regardless of size and
developments in applicable Government                   comprehensive set of policies as part of               capability. If a lack of resources to
and private health care program                         their compliance program if existing                   develop such policies is genuinely an
requirements. Finally, the OIG                          policies encompass the provider’s                      issue, the OIG recommends that those
recommends that current employees, as                   operations and relevant rules. However,                nursing facilities focus first on those
well as those newly hired, should                       the nursing home industry is subject to                risk areas most likely to arise in their
certify that they have received and read                numerous Federal and State statutes,                   business operations. At a minimum,
the organization’s code of conduct.                     rules, regulations and manual                          resources should be directed to analyze
These certifications should be updated                  instructions.19 Because these program                  the results of annual surveys,22 and to
on a regular basis, possibly as part of an              requirements are frequently modified,                  verify that the facility has effectively
annual training program, retained in the                the OIG recommends that all nursing                    addressed any deficiencies cited by the
employee’s personnel file and made                      facilities evaluate their current                      surveyors. An effective and low-cost
available for review.18                                 compliance policies and procedures by                  means to accomplish this is through the
                                                        conducting a baseline assessment of risk               use of the facility’s Quality Assessment
  The OIG believes that all nursing
                                                        areas, as well as subsequent                           and Assurance Committee. The
facilities should operate under the
                                                        reevaluations.20 The OIG also                          committee should consist of facility staff
guidance of a code of conduct. While
                                                        recommends that these internal                         members, including the Director of
the OIG recognizes that some nursing                    compliance reviews be undertaken on a                  Nursing and the facility physician. On
facilities may not have the resources to                regular basis to ensure compliance with                a periodic basis, the committee should
establish a comprehensive compliance                    current program requirements.                          meet to identify compliance issues
program, we believe that every nursing                     To assist nursing facilities in                     affecting the quality of care provided to
facility can design a program that                      performing this internal assessment, the               the residents and to develop and
addresses the seven elements set out in                 OIG has developed a list of potential                  implement appropriate corrective
this guidance, albeit at different levels               risk areas affecting nursing facility                  actions. The time commitment required
of sophistication and complexity. In its                providers. These risk areas include                    for this collaborative effort will vary
most fundamental form, a facility’s code                quality of care and residents’ rights,                 according to the magnitude of the
of conduct is a basic set of standards                  employee screening, vendor                             facility’s quality assessment and
that articulate the organization’s                      relationships, billing and cost reporting,             assurance issues.
philosophy, summarizes basic legal                      and recordkeeping and documentation.                      Creating a resource manual from
principles, and teaches employees how                   This list of risk areas is not exhaustive,             publicly available information may be a
to respond to practices that may violate                nor all encompassing. Rather, it should                cost-effective approach for developing
the code of conduct and standards.                      be viewed as a starting point for an                   policies and procedures to improve the
These standards should be posted and                    internal review of potential                           quality of each resident’s life. For
distributed to every employee. Further,                 vulnerabilities within the nursing                     example, a simple binder that contains
even a small nursing facility should                    facility.21 The objective of this                      a facility’s written policies and
obtain written attestation from its                     assessment should be to ensure that the                procedures, the most recent survey
employees to confirm their                              employees, managers and directors are                  findings and plan of correction, relevant
understanding and commitment to the                     aware of these risk areas and that steps               HCFA instructions and bulletins, and
nursing facility’s code of conduct.                     are taken to minimize, to the extent                   summaries of key OIG documents (e.g.,
2. Specific Risk Areas                                  possible, the types of billing and quality             Special Fraud Alerts, Advisory
                                                        of care problems identified. While there               Bulletins, inspection and audit reports)
  As part of their commitment to a                      are many ways to accomplish this                       can be regularly updated and made
compliance program, nursing facilities                  objective, the OIG has observed that                   accessible to all employees. Particularly
should prepare a comprehensive set of                   comprehensive, clear written standards,                in the case of more technical materials,
written policies and procedures that are                                                                       it may be advisable to provide
in place to prevent fraud and abuse in                     19 See http://www.hcfa.gov for a set of all         summaries in the handbook and make
facility operations and to ensure the                   Medicare and Medicaid manuals.                         the source documents available upon
                                                           20 In addition, all providers should be aware of
appropriate care of their residents.                                                                           request. If individualized copies of this
                                                        the enforcement priorities of Federal and State
These policies and procedures should                    regulators and law enforcement agencies. OIG           handbook are not made available to all
educate and alert all affected managers                 periodically issues Special Fraud Alerts and Special   employees, then a reference copy
and employees of the Federal health                     Advisory Bulletins that identify activities believed   should be available in a readily
                                                        to raise enforcement concerns. These documents
care program requirements, the                          and other materials that provide insight into the
                                                                                                               accessible location, as well as from the
consequences of noncompliance, and                      nursing home enforcement priorities of the OIG are     designated compliance officer.
the specific procedures that nursing                    referenced throughout this guidance.                      a. Quality of Care. The OIG believes
facility employees should follow to                        21 The OIG recommends that, in addition to the      that a nursing facility’s compliance
                                                        list set forth below, the provider review the OIG’s    policies should start with a statement
                                                        Work Plan to identify vulnerabilities and risk areas
as the physicians and contractors associated with       on which the OIG will focus during the following       that affirms the facility’s commitment to
the facility.                                           year. In addition, it is recommended that the
  18 Documentation of employee training and other       nursing facility routinely review the OIG’s              22 State and local agencies enter into agreements

compliance efforts is important in conducting           semiannual reports, which identify program             with DHHS under which they survey and make
internal assessments of the compliance program, as      vulnerabilities and risk areas that the OIG has        recommendations regarding whether providers
well as during any third-party evaluation of            targeted during the preceding six months. All of       meet the Medicare conditions of participation or
facility’s efforts to comply with Federal health care   these documents are available on the OIG’s             other requirements for SNFs and NFs (See 42 CFR
program requirements. See section II.F.                 webpage at http://www.hhs.gov/oig.                     488.10).
58424                          Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices

providing the care necessary to attain or                    • Absence of a comprehensive,                             • Failure to provide appropriate
maintain the resident’s ‘‘highest                         accurate assessment of each resident’s                    therapy services; 30
practicable physical, mental and                          functional capacity and a                                    • Failure to provide appropriate
psychosocial well-being.’’ 23 To achieve                  comprehensive care plan that includes                     services to assist residents with
the goal of providing quality care,                       measurable objectives to meet the                         activities of daily living (e.g., feeding,
nursing facilities should continually                     resident’s medical, mental and                            dressing, bathing, etc.); and
measure their performance against                         psychosocial needs;26                                        • Failure to report incidents of
comprehensive standards, which at a                          • Inappropriate or insufficient                        mistreatment, neglect, or abuse to the
minimum should include the Medicare                       treatment and services to address                         administrator of the facility and other
conditions of participation.24 In                         residents’ clinical conditions, including                 officials as required by law.31
addition to these regulations, a facility                                                                              As noted previously, a nursing facility
                                                          pressure ulcers, dehydration,
should develop its own standards of                                                                                 that has a history of serious deficiencies
                                                          malnutrition, incontinence of the
quality care and the mechanisms for                                                                                 should use those survey results as a
                                                          bladder, and mental or psychosocial
evaluating its performance.                                                                                         starting point for implementing a
                                                          problems; 27
   As noted above, current and past                                                                                 comprehensive plan to improve its
surveys are a good place to begin to                         • Failure to properly prescribe,                       quality of care. Effectively addressing
identify specific risk areas and                          administer and monitor drug                               these risk areas with written policies
regulatory vulnerabilities at the                         medication usage, including                               and procedures, which are then
individual facility. Any deficiencies                     psychotropic and anti-depressant                          implemented through effective training
discovered by annual State agency or                      medications; 28                                           programs, can most directly improve the
Federal validation surveys may reflect                       • Inadequate or insufficiently trained                 quality of the nursing home residents’s
noncompliance with the program                            staff to provide medical, nursing, and                    life.
regulations and can be the basis for                      related services; 29                                         b. Residents’ Rights. The Budget
enforcement actions.25 Those                                                                                        Reconciliation Act (OBRA) of 1987,
deficiencies identified by the State                         26 As stated above, each resident must receive the     Public Law 100–203, established a
health agency survey instrument should                    necessary care and services to attain or maintain the     number of requirements to protect and
                                                          highest practicable physical, mental, and                 promote the rights of each resident.32 In
be addressed and, where appropriate,                      psychosocial well-being, in accordance with the
the corrective action should be                           resident’s assessment and plan of care (see 42 CFR
                                                                                                                    addition, many States have adopted
incorporated into the facility’s policies                 483.25). The OIG recognizes that this standard does       specific lists of residents’ rights.33 The
and procedures as well as reflected in                    not always lend itself to easy, objective evaluation.     nursing facility’s policies should
its training and educational programs.                    The matter is further complicated by the right of the     address the residents’ right to a
                                                          resident, or his or her legal representative, to decide   dignified existence that promotes
In addition to responding promptly to                     on a course of treatment that may be contra-in-di-
deficiencies identified through the                       cated. The Patient Self-Determination Act (P.L.           freedom of choice, self-determination,
survey and certification process, nursing                 103–413) requires health care institutions to             and reasonable accommodation of
facilities should take proactive measures                 educate patients about advance directives and to          individual needs. To protect the rights
                                                          document their decision on life-sustaining                of each resident, the OIG recommends
to identify, anticipate and respond to                    treatments.
quality of care risk areas identified by                     27 HCFA has created a repository of best practice
                                                                                                                    that a provider address the following
the nursing home ombudsman or other                       guidelines for the care of residents at risk of           risk areas as part of its compliance
sources.                                                  pressure ulcers, dehydration and malnutrition. In         policies:
   As noted throughout this guidance,                     addition, the Food and Nutrition Board of the                • Discriminatory admission or
                                                          National Research Council, National Academy of            improper denial of access to care; 34
each provider must assess its                             Sciences, has established recommended dietary
vulnerability to particular abusive                       allowances.
                                                                                                                      30 See OIG report OEI–09–97–00120 ‘‘Medical
practices in light of its unique                             28 The OIG has conducted a series of reviews that

                                                          focused on prescription drug use in nursing homes.        Necessity of Physical and Occupational Therapy in
circumstances. However, the OIG,                                                                                    Skilled Nursing Facilities,’’ which found a high rate
                                                          See OIG reports OEI–06–96–00080, OEI–06–96–
HCFA, the Department of Justice, and                      0008, OEI–06–96–00082, ‘‘Prescription Drug Use in         of medically unnecessary therapies in a number of
State enforcement agencies have                           Nursing Homes.’’ The OIG found that patients              nursing facilities; such unnecessary services lead to
substantial experience in identifying                     experienced adverse reactions to various drugs as         inappropriate care. With the introduction of the
                                                          a result of inappropriate prescribing and inadequate      prospective payment system, nursing facilities
quality of care risk areas. Some of the                                                                             should ensure that financial pressures do not create
                                                          monitoring of medication usage. The reviews
special areas of concern include:                         revealed serious concerns, including residents            incentives to underutilize medically necessary
                                                          receiving drugs for which their medical records           therapeutic services.
   23 42 CFR 483.25. See OIG report OEI–02–98–                                                                        31 In addition to providing the facility’s
                                                          lacked evidence of a prescription; and the
00331 ‘‘Quality of Care in Nursing Homes: An              prescription of drugs judged inappropriate for use        management important information about the state
Overview,’’ in which the OIG found that, although         by elderly persons. The studies also found that           of care in the facility, the self-reporting of resident
the overall number of deficiencies identified             medication records were often incomplete and not          abuse, including injuries of unknown sources, is a
through the survey and certification process was          readily accessible, making it difficult for a             condition of participation (See 42 CFR 483.13(c)(2)).
decreasing, the number of ‘‘quality of care’’ and         pharmacist to identify or confirm drug regimens or        Although State surveyors conduct complaint
other serious deficiencies was increasing.                problems.                                                 surveys when they receive a complaint, these
   24 See 42 CFR part 483, which establishes                 29 For example, Federal regulations require that       surveys can only occur if the surveyors are aware
requirements for long-term care facilities. HCFA’s        the medical care of each resident should be               of the problem.
                                                                                                                      32 See generally, 42 U.S.C. 1395i–3 and 42 CFR
regulations establish conditions that must be met         supervised by a physician, who must see the
for a nursing facility to qualify to participate in the   resident at least once every 30 days for the first 90     part 483.
Medicare and Medicaid programs. State licensure           days after admission and at least once every 60 days        33 In OIG report OEI–02–98–00350 ‘‘Long Term

laws may impose additional requirements for the           thereafter (see 42 CFR 483 40(c)). The facility also      Ombudsman Program: Complaint Trends,’’ the OIG
establishment and certification of a nursing facility.    must retain the services of a registered nurse, 42        points out that complaints about resident care and
   25 See 42 CFR part 488, subparts A, B, C, E, and       CFR 483.30, as well as a qualified dietitian. 42 CFR      resident rights have been increasing. Resident care
F. The survey instrument is used to identify              483.35. In addition to these basic Federal                concerns included complaints about personal care,
deficiencies, such as: failure to notify residents of     requirements, the OIG strongly believes that the          such as a pressure and hygiene, lack of
their rights; improper use of restraints for discipline   facility should conform to State-mandated staffing        rehabilitation, the inappropriate use of restraints,
purposes; lack of a clean and safe environment;           levels where they exist and adopt its own minimum         abuse and neglect, problems with admissions and
failure to provide care for basic living activities,      ‘‘hours per patient’’ staffing standards in any case.     eviction, and the exercise of personal rights.
including failing to prevent and/or treat pressure        At the heart of many quality of care deficiencies is        34 Nursing facilities should offer care to all

sores, urinary incontinence, hydration; and failing       a lack of adequate staff needed to provide basic          patients who are eligible in accordance with
to properly feed residents.                               nursing services.                                         Federal and State laws governing admissions (See
                               Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                                                      58425

   • Verbal, mental or physical abuse,                   fraudulent billing practices, as well as                   • Submitting claims for equipment,
corporal punishment and involuntary                      abuses in other risk areas that are                      medical supplies and services that are
seclusion; 35                                            described in these compliance program                    medically unnecessary; 43
   • Inappropriate use of physical or                    guidances, have resulted in criminal,                      • Submitting claims to Medicare Part
chemical restraints; 36                                  civil and administrative enforcement
   • Failure to ensure that residents                                                                             A for residents who are not eligible for
                                                         actions. Because the consequences of
have access to their personal records                                                                             Part A coverage; 44
                                                         these enforcement actions can have a
upon request and that the privacy and                    profound adverse impact on a provider,                     • Duplicate billing; 45
confidentiality of those records are                     the identification of risk areas                           • Failing to identify and refund credit
protected; 37                                            associated with billing and cost                         balances; 46
   • Denial of a resident’s right to                     reporting should be a major part of a
participate in his or her care and                       nursing facility’s compliance program.                      43 Billing for medically unnecessary services,
treatment; 38                                               The introduction of a prospective                     supplies and equipment involves seeking
   • Failure to safeguard residents’                                                                              reimbursement for a service that is not warranted
                                                         payments system (PPS) for Medicare
financial affairs.39                                                                                              by a resident’s documented medical condition. See
                                                         SNFs and implementation of                               42 U.S.C. 1395i(a)(1)(A) (‘‘no payment may be made
   c. Billing and Cost Reporting. Abusive
                                                         consolidated billing create additional                   under part A or part B [of Medicare] for any
and fraudulent billing practices in the
                                                         issues to be addressed when designing                    expenses incurred for items or services
Federal health care programs drain the                                                                            which * * * are not reasonable and necessary for
                                                         billing and cost reporting compliance
public fisc of the funds needed to                                                                                the diagnosis or treatment of illness or injury or to
                                                         policies and procedures.41 In the
provide program beneficiaries medically                                                                           improve the functioning of the malformed body
necessary items and services. Over the                   following discussion of billing risk                     member’’). In the Special Fraud Alert ‘‘Fraud and
last twenty years, the OIG has identified                areas, the OIG has attempted to identify                 Abuse in the Provision of Services in Nursing
                                                         issues that pose concerns under the                      Facilities’’ (June 1996), the OIG identified several
patterns of improper and fraudulent                                                                               types of fraudulent arrangements through which
activities that cover the spectrum of                    current systems of reimbursement, the
                                                                                                                  health care providers inappropriately billed
health care services and have cost                       transition period to consolidated billing,               Medicare and Medicaid for unnecessary or non-
taxpayers billions of dollars.40 These                   as well as anticipate potential                          rendered items and services.
                                                         compliance issues stemming from these                       Under PPS, the provision of unnecessary services
42 CFR 483.12(d)). The provider also should              program changes. As is the case with all                 may take a different form. As discussed below,
                                                         aspects of compliance, the nursing                       manipulation of the Minimum Data Set (MDS) to fit
maintain identical policies regarding ‘‘transfer,
                                                                                                                  a resident into a higher RUG can result in the
discharge, and provision of services under the State     facility must continually reassess its                   provision of medically unnecessary services. In
plan’’ for all residents, regardless of payment source   billing procedures and policies to                       addition, a nursing facility may not enter into
(See 42 CFR 483.12(c)). See also OIG report OEI–
02–99–00400 ‘‘Early Effects of the Prospective           ensure that unanticipated problems are                   arrangements with providers of ancillary services
                                                         promptly identified and corrected.                       through which the facility overutilizes services
Payment System on Access to Skilled Nursing
                                                                                                                  reimbursed under Part B in return for an offset in
Facilities.’’                                            Listed below are some of the                             the cost of items or services covered under Part A.
   35 See California Nursing Homes: Care Problems
                                                         reimbursement risk areas a nursing                          44 Medicare Part A benefits in skilled nursing
Persist Despite Federal and State Oversight (GAO/
HEHS–98–202, July, 1998). As noted previously, the
                                                         facility should consider addressing as                   facilities are limited to beneficiaries who require
facility must establish a process by which the           part of its written compliance policies                  services rendered by technical or professional
facility administrator is informed of incidents of       and procedures:                                          personnel in a skilled nursing setting (See 42 CFR
abuse and an investigation is conducted within 5                                                                  409.30). Knowingly misrepresenting the nature or
days of the incident (See 42 CFR 483.13(c)(4)).
                                                            • Billing for items or services not                   level of services provided to a Medicare beneficiary
   36 See OIG Report OEI–01–91–00840 ‘‘Minimizing        rendered or provided as claimed; 42                      to circumvent the program’s limitation is
Restraints in Nursing Homes: A Guide to Action.’’                                                                 fraudulent.
                                                                                                                     45 Duplicate billing occurs when the nursing
   37 It is a violation of the Medicare conditions of
                                                         7 percent of the total estimated improper payments.
participation to make unauthorized disclosures           The OIG could not and did not quantify what              facility bills for the same item or service more than
from the resident’s medical records (See 42 CFR          percentage of the improper payments was the result       once or when a vendor bills the Federal health care
483.10(e)). The facility should also establish           of fraud. Significantly, it was only through a review    program for an item or service also billed by the
policies that respect each resident’s right to privacy   of medical records that the majority of these billing    facility. Although duplicate billing can occur due
in personal communications, including the right to       errors were detected, since when the claims were         to simple error, the knowing submission of
receive mail that is unopened and to the use of a        submitted to the Medicare contractor, they               duplicate claims—which is sometimes evidenced
telephone where calls can be made in privacy.            contained no visible errors.                             by systematic or repeated double billing—can create
   38 The right of self-determination includes the          41 The Balanced Budget Act of 1997 (BBA), Public      liability under criminal, civil, or administrative
resident’s right to choose a personal physician, to      Law 105–33, established PPS for SNFs. Under PPS,         law. When Medicare Part B implements
be fully informed of his or her health status, and       all costs (routine, ancillary, and capital) related to   consolidated billing, facilities should modify all
participate in treatment decisions, including the        services furnished to beneficiaries covered under        agreements with vendors to require that the vendor
right to refuse treatment, unless adjudged               Part A, including certain Part B services, are paid      bill the facility for those services covered under
incompetent or incapacitated (See 42 CFR                 a predetermined amount based on the medical              consolidated billing requirements and not submit
483.10(d)).                                              condition and needs of the resident, as reflected in     bills directly to Medicare for such services.
   39 This includes preserving the resident’s right to                                                               46 A credit balance is an excess payment made to
                                                         the Resource Utilization Group (RUG) code
manage his or her financial affairs or permit the        assigned to that resident. Other Part B services will    a health care provider as a result of patient billing
facility to hold and manage personal funds. The          continue to be reimbursed separately to the              or claims processing error. Nursing facilities should
resident should receive a full and complete              providers of such services pending implementation        institute procedures to provide for the timely
accounting of personal funds held by the facility        of a new consolidated billing system.                    identification, accurate reporting and repayment of
(See 42 CFR 483.10 (c)). If a misappropriation of a         42 For example, the OIG has investigated              credit balances. In addition, the provider should
resident’s property is uncovered, the facility           suppliers of ancillary services that improperly bill     promptly repay if a resident is also entitled to a
administrator should be notified immediately and         for an hour of therapy when only a few minutes           credit. See OIG report OEI–07–09–00910 ‘‘Medicare
an investigation conducted. Finally, the provider        were provided. Similarly, vendors that knowingly         Credit Balances in Skilled Nursing Facility Patient
should take measures to ensure that personal funds       submit a claim for an expensive prosthetic device        Accounts’’ and OEI–07–09–00911 ‘‘Medicaid Credit
have not been used to pay for items or services paid     when the resident only received non-covered adult        Balances in Skilled Nursing Facility Patient
for by Medicare or Medicaid.                             diapers have been the subject of enforcement             Accounts,’’ in which the OIG found that skilled
   40 See OIG Report A–17–99–00099 ‘‘Improper            actions. When consolidated billing is implemented,       nursing facilities were not accurately or completely
Fiscal Year 1998 Fee-for-Service Payments’’ in           vendors will not submit bills directly to Medicare       adjusting and reporting credit balance amounts due
which the OIG estimated that improper Medicare           for such services. As the entity submitting the          to the Medicare and Medicaid programs.
benefit payments made during FY 1998 totaled             claim, the nursing facility will need to have any        Significantly, the intentional concealment of a
$12.6 billion in processed fee-for-service payments.     certifications or orders necessary to provide the        known overpayment may expose a provider to
SNF payment errors were a result of claims for           service, as well as supporting documentation             criminal sanctions (See 42 U.S.C. 1320a–7b(a)(3)),
services lacking medical necessity and represented       required, to receive payment.                            and civil liability under the False Claims Act.
58426                          Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices

  • Submitting claims for items or                           The OIG recommends that a nursing                      Nursing facility policies should
services not ordered;47                                   facility, through its policies and                      prohibit the continued employment of
  • Knowingly billing for inadequate or                   procedures, take all reasonable steps to                individuals who have been convicted of
substandard care;48                                       ensure compliance with the Federal                      a criminal offense related to health care
  • Providing misleading information                      health care programs when submitting                    or who are debarred, excluded, or
about a resident’s medical condition on                   information that affects reimbursement                  otherwise become ineligible for
the MDS or otherwise providing                            decisions. The risk areas associated with               participation in Federal health care
inaccurate information used to                            billing and cost reporting have been                    programs.55 In addition, if the facility
determine the RUG assigned to the                         among the most frequent subjects of                     has notice that an employee or
resident;                                                 investigations and audits by the OIG. In
                                                                                                                  contractor is charged with a criminal
  • Upcoding the level of service                         addition to facing criminal sanctions
                                                                                                                  offense related to any Federal health
provided; 49                                              and significant monetary penalties,
                                                                                                                  care program, or is proposed for
  • Billing for individual items or                       providers that have failed to adequately
                                                          ensure the accuracy of their claims and                 exclusion during his or her employment
services when they either are included
                                                          cost report submissions can be excluded                 or contract, the facility shall take all
in the facility’s per diem rate or are of
                                                          from program participation, or in lieu of               appropriate actions to ensure that the
the type of item or service that must be
billed as a unit and may not be                           exclusion, be required by the OIG to                    responsibilities of that employee or
unbundled;50                                              execute a corporate integrity agreement                 contractor do not adversely affect the
  • Billing residents for items or                        (CIA).53                                                quality of care rendered to any patient
services that are included in the per                        d. Employee Screening. Nursing                       or resident, or the accuracy of any
diem rate or otherwise covered by the                     facilities are required by Federal, and in              claims submitted to any Federal health
third-party payor;                                        some cases State, law to investigate the                care program.56 If resolution of the
  • Forging physician or beneficiary                      background of certain employees.                        matter results in conviction, debarment,
signatures on documents used to verify                    Nursing facilities should conduct a                     or exclusion, the nursing facility should
that services were ordered and/or                         reasonable and prudent background                       terminate its employment or other
provided;51                                               investigation and reference check before                contract arrangement with the
  • Failing to maintain sufficient                        hiring those employees who have access                  individual.
documentation to establish that the                       to patients or their possessions, or who
                                                          have discretionary authority to make                      In order to ensure that nursing
services were ordered and/or performed;                                                                           facilities undertake background checks
and                                                       decisions that may involve compliance
                                                          with the law. The employment                            of all employees to the extent required
  • False cost reports.52                                                                                         by law, the OIG recommends that the
                                                          application should specifically require
  47 Billing for services or items not ordered            the applicant to disclose any criminal                  following measures be incorporated into
involves seeking reimbursement for services               conviction, as defined by 42 U.S.C.                     the compliance program’s policies and
provided but not ordered by the treating physician        1320a–7; or exclusion from                              procedures:
or other authorized person.                               participation in the Federal health care
  48 See discussion on quality of care standards in                                                                 • Investigate the background of
                                                          programs.                                               employees by checking with all
nursing facilities in section II.B.2.a above and the
accompanying notes. Knowingly billing for                    This pre-employment screening is
inadequate or substandard care may create liability       critical to ensuring the integrity of the
under administrative, civil and criminal law.             facility’s work force and safeguarding                  background checks on nursing home staff, 33 States
  49 Upcoding involves the selection of a Billing                                                                 currently require that such checks occur. However,
                                                          the welfare of its residents. Because                   there appears to be great diversity in the way States
code that is not the most appropriate descriptor of       providers of nursing care have frequent,
the service or condition, in order to maximize                                                                    identify, investigate, and report suspected abuse of
reimbursement. Under PPS, upcoding may take the           relatively unsupervised access to                       nursing home residents.
form of ‘‘RUG creep.’’ RUG creep occurs when a            vulnerable people and their property, a                   55 The effect of an OIG exclusion from Federal

provider falsely or fraudulently completes the MDS,       nursing facility also should seriously                  health care programs is that no Federal health care
which results in assigning a resident to a higher         consider whether to employ individuals                  program payment may be made for any items or
RUG category.                                                                                                     services: (1) furnished by an excluded individual or
  50 A related risk area involves bill splitting
                                                          who have been convicted of crimes of                    entity; or (2) directed or prescribed by an excluded
schemes. This billing abuse usually takes the form        neglect, violence, theft or dishonesty, or              physician (See 42 CFR 1001.1901). An excluded
of manipulating the billing for procedures to create      financial misconduct.54                                 individual or entity that submits a claim for
the appearance that the services were rendered over                                                               reimbursement to a Federal health care program, or
a period of days when all treatment occurred during       with program rules, those items should be flagged       causes such a claim to be submitted, may be subject
one visit.                                                in a letter accompanying the cost report. Prior         to a civil money penalty of $10,000 for each item
  51 The OIG has investigated a number of cases           enforcement actions involving nursing home cost         or service furnished during the period that the
where signatures were forged, either to fabricate         reports have focused on nursing facilities that         person or entity was excluded (See 42 U.S.C.
evidence that a physician ordered equipment or            claimed salary expenses for employees who do not        1320a–7a(a)(1)(D)). The individual or entity may
services or to create a paper trail in support of items   exist, inflated the number of residents served,         also be subject to treble damages for the amount
or services that were never provided.                     included non-reimbursable costs with nursing            claimed for each item or service (See 42 U.S.C.
  52 Nursing homes are required to submit various         home-related expenses, inappropriately shifted          1320a–7a(a)). Also see OIG Special Advisory
reports to Federal and State agencies in connection       costs to cost centers that are below the                Bulletin ‘‘The Effect of Exclusion From
with facility operations and to receive                   reimbursement cap, and shifted non-Medicare             Participation in Federal Health Care Programs’’
reimbursement for the care provided to program            related costs to Medicare cost centers.                 (September 1999).
                                                             53 The CIA imposes reporting requirements,             56 Likewise, the facility should establish
beneficiaries. Because program payments are in part
based on self-reported operating costs, providers         independent audits, and other procedures on             standards prohibiting the execution of contracts
must implement procedures to ensure that these            providers who have demonstrated an inability or         with companies that have been recently convicted
reports are prepared as accurately as possible. This      unwillingness to independently adopt these              of a criminal offense related to health care or that
should include measures to ensure that adequate           measures. It is clearly in a provider’s best interest   are listed by a Federal agency as debarred,
documentation exists to support information               to avoid the implementation of a CIA by instituting     excluded, or otherwise ineligible for participation
provided in the report, non-allowable costs are           its own prevention, detection, and disclosure           in Federal health care programs. Prospective
appropriately identified and removed, and related         mechanisms.                                             employees or contractors that have been officially
party transactions are treated consistent with               54 In OIG report A–12–97–0003 ‘‘Safeguarding         reinstated into the Medicare and Medicaid
program requirements (See 42 CFR part 413). If the        Long Term Care Residents,’’ it was noted that           programs by the OIG may be considered for
provider intends to claim costs in non-conformity         although no Federal requirement exists for criminal     employment upon proof of such reinstatement.
                               Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                                                          58427

applicable licensing and certification                    through their employees and are held                       facilities also should implement
authorities to verify that requisite                      accountable for their actions. One of the                  measures to avoid offering inappropriate
licenses and certifications are in order;57               best ways to ensure that the                               inducements to residents. Possible risk
   • Require all potential employees to                   organization will act in conformance                       areas that should be addressed in the
certify that they have not been                           with the law is to hire employees and                      policies and procedures include:
convicted of an offense that would                        contractors who can be trusted to
preclude employment in a nursing                                                                                        • Routinely waiving coinsurance or
                                                          embrace a culture of compliance. While
facility and that they are not excluded                   the resources required to check the OIG                    deductible amounts without a good faith
from participation in the Federal health                  List of Excluded Individuals/Entities are                  determination that the resident is in
care programs;                                            minimal, the absence of an accessible                      financial need, or absent reasonable
   • Check available public sources,                      centralized site for criminal background                   efforts to collect the cost-sharing
including the OIG’s List of Excluded                      checks may result in inefficiencies and                    amount;64
Individuals/Entities and the GSA’s list                   expense. While large providers may                            • Agreements between the facility
of debarred contractors, to verify that                   elect to outsource the screening process,                  and a hospital, home health agency, or
employees are not excluded from                           this may not be a realistic option for                     hospice that involve the referral or
participating in the Federal health care                  smaller nursing facilities. Nevertheless,                  transfer of any resident to or by the
programs;58 and                                           the OIG recommends that all nursing                        nursing home;65
   • Periodically check the OIG and                       facilities implement a policy to
GSA web sites to verify the                               undertake background checks of all                            • Soliciting, accepting or offering any
participation/exclusion status of                         employees.                                                 gift or gratuity of more than nominal
independent contractors and retain on                        e. Kickbacks, Inducements and Self-                     value to or from residents, potential
file the results of that query.59                         Referrals. A nursing facility should have                  referral sources, and other individuals
   Regardless of the size or resources of                 policies and procedures to ensure                          and entities with which the nursing
the nursing facility, employee screening                  compliance with the anti-kickback                          facility has a business relationship; 66
is a critical component of compliance                     statute,60 the Stark physician self-                          • Conditioning admission or
policies and procedures. Nursing                          referral law 61 and other relevant Federal                 continued stay at a facility on a third-
facilities, like all corporations, must act               and State laws by providing guidance in                    party guarantee of payment, or soliciting
                                                          situations that could lead to a violation                  payment for services covered by
   57 Among the sources of information on                 of these laws.62 In particular,                            Medicaid, in addition to any amount
prospective employees are the State registry of           arrangements with hospitals, hospices,
nurse’s aides, which provides a list of nurse aides       physicians and vendors are vulnerable
that have successfully completed training and                                                                           64 In the OIG Special Fraud Alert ‘‘Routine
competency evaluations and the National                   to abuse. For example, in the case of                      Waiver of Part B Co-payments/Deductibles’’ (May
Practitioner Data Bank. The Data Bank is a data base      hospitals, physicians and hospital staff                   1991), the OIG describes several reasons why
that contains information about medical                   exert influence over the patient and can                   routine waivers of these cost-sharing amounts pose
malpractice payments, sanctions by boards of              influence the choice of a nursing                          abuse concerns. The Alert sets forth the
medical examiners or State licensing boards,                                                                         circumstances under which it may be appropriate
adverse clinical privilege actions, and adverse           facility. In addition, his or her roles as                 to waive these amounts.
professional society membership actions. Health           medical director and/or attending                             65 In the Special Fraud Alert ‘‘Fraud and Abuse
care entities can have access to this data base to        physician, a physician frequently can                      in Nursing Home Arrangements With Hospices’’
seek information about their own medical or               influence the utilization of ancillary                     (March 1998), the OIG sets out the vulnerabilities
clinical staff, as well as prospective employees or                                                                  in nursing home arrangements with hospices. The
physician contractors.                                    services.63 Moreover, by contrast, a
                                                                                                                     Alert provides several examples of questionable
   58 The OIG ‘‘List of Excluded Individuals/             nursing facility operator can influence                    arrangements between hospices and nursing homes
Entities’’ provides information to health care            the selection of which hospices will                       that could inappropriately influence the referral of
providers, patients, and others regarding                 provide hospice services and which                         patients. Examples include the offering of free
individuals and entities that are excluded from                                                                      goods or goods at below fair market value to induce
participation in Medicare and Medicaid, and other
                                                          vendors will deliver equipment and
                                                                                                                     a nursing home to refer patients to the hospice.
Federal health care programs. This report, in both        services to the facility’s residents. In                   Other examples demonstrating vulnerability to
an on-line searchable and downloadable database,          addition to developing policies to                         fraud and abuse include: (1) a hospice paying for
can be located on the Internet at www.hhs.gov/oig.        address arrangements with other health                     room and board in excess of the amounts the
In addition, the General Services Administration                                                                     nursing home would normally charge or receive
maintains a monthly listing of debarred contractors,
                                                          care providers and suppliers, nursing
                                                                                                                     from Medicaid; (2) a hospice paying for additional
‘‘List of Parties Excluded From Federal                                                                              services that should be already included in the
                                                             60 The anti-kickback statute provides criminal
Procurement and Nonprocurement Programs,’’ at                                                                        room and board payment; (3) a hospice referring
www.arnet.gov/epls.                                       penalties for individuals and entities that                patients to the nursing home in return for the
   The OIG sanction information is readily available      knowingly offer, pay, solicit or receive bribes or         nursing home’s referral to the hospice. While the
to users in two formats on over 15,000 individuals        kickbacks or other remuneration in order to induce         Special Fraud Alert focused on arrangements with
and entities currently excluded from program              business reimbursable by Federal health care               hospices, nursing facilities should adopt policies
participation through action taken by the OIG. The        programs (See 42 U.S.C. 1320a–7b(b)). Civil                that prohibit similar questionable arrangements
on-line searchable database allows users to obtain        penalties and exclusion from participation in the          with all health care providers.
information regarding excluded individuals and            Federal health care programs may also result from             66 Providers should establish clear policies
entities sorted by: (1) the legal bases for exclusions;   a violation of the prohibition (See 42 U.S.C. 1320a–       governing gift-giving, because such exchanges may
(2) the types of individuals and entities excluded        7a(a)(5) and 1320a–7(b)(7)).                               be viewed as inducements to influence business
                                                             61 The Stark physician self-referral law, 42 U.S.C.
by the OIG; and (3) the States where excluded                                                                        decisions. Offering or providing any gift of more
individuals reside or entities do business.               1395nn, prohibits a physician from making a                than nominal value to any beneficiary may be done
   59 The introduction of PPS and consolidated            referral to an entity with which the physician or          with the intent to inappropriately influence health
billing for Medicare Part B services means that           any member of the physician’s immediate family             care decisions of the beneficiary or his or her
vendors and their subcontractors no longer submit         has a financial relationship, if the referral is for the   family. Similarly, accepting gifts, hospitality, or
bills directly to Medicare for their services. Instead,   furnishing of designated health services.                  entertainment from a source that is in a position to
                                                             62 The OIG has issued several advisory opinions
the nursing facility will be submitting consolidated                                                                 benefit from the referral of business, raises concerns
bills for certain services provided to residents.         applying the Federal statutes to arrangements that         that the gift may influence the employee’s
Because of the new responsibilities that are              affect nursing facilities. The opinions are available      independent judgment. If the provider decides to
imposed on nursing facilities under these                 on the Internet at http://www.hhs.gov/oig.                 allow employees to accept gifts or other gratuities
reimbursement schemes, the facility may be held              63 Contracts between the facility and any entity in     below a certain nominal value or in an aggregate
responsible if it claims reimbursement for items or       which the facility’s medical director has a financial      amount below an established amount per year, the
services provided by a contractor that has been           interest may be subject to the Stark law and should        provider should consider requiring employees to
excluded.                                                 be reviewed and approved by legal counsel.                 report those gifts.
58428                          Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices

required to be paid under the State                        • Swapping.73                                             While conducting its compliance
Medicaid plan; 67                                          In order to keep current with this area                activities, as well as its daily operations,
  • Arrangements between a nursing                       of the law, a nursing facility should                    a nursing facility should document its
facility and a hospital under which the                  obtain copies of all relevant OIG and                    efforts to comply with applicable
facility will only accept a Medicare                     HCFA regulations, Special Fraud Alerts,                  statutes, regulations, and Federal health
beneficiary on the condition that the                    and Advisory Opinions that address the                   care program requirements. For
hospital pays the facility an amount                     application of the anti-kickback and                     example, where a nursing facility
over and above what the facility would                   Stark self-referral laws to ensure that the              requests advice from a Government
receive through PPS; 68                                  policies reflect current positions and                   agency (including a Medicare fiscal
  • Financial arrangements with                          opinions. Further, nursing facility                      intermediary or carrier) charged with
physicians, including the facility’s                     policies should provide that all nursing                 administering a Federal health care
medical director; 69                                     facility contracts and arrangements with                 program, the nursing facility should
  • Arrangements with vendors that                       actual or potential sources of referrals                 document and retain a record of the
result in the nursing facility receiving                 are reviewed by counsel and comply                       request and any written or oral
non-covered items (such as disposable                    with applicable statutes and                             response. This step is extremely
adult diapers) at below market prices or                 requirements.                                            important if the nursing facility intends
no charge, provided the facility orders                  3. Retention of Records                                  to rely on that response to guide it in
Medicare-reimbursed products; 70                                                                                  future decisions, actions, or claim
  • Soliciting or receiving items of                        Nursing facilities that implement a                   reimbursement requests or appeals. A
value in exchange for providing the                      compliance program should provide for                    log of oral inquiries between the nursing
supplier access to residents’ medical                    the development and implementation of                    facility and third parties will help the
records and other information needed to                  a records retention system. This system                  organization document its attempts at
                                                         should establish policies and
bill Medicare; 71                                                                                                 compliance. In addition, these records
                                                         procedures regarding the creation,
  • Joint ventures with entities                                                                                  may become relevant in a subsequent
                                                         distribution, retention, and destruction
supplying goods or services; 72 and                                                                               investigation to the issue of whether the
                                                         of documents. In designing a records
                                                                                                                  facility’s reliance was ‘‘reasonable’’ and
                                                         systems, privacy concerns and
   67 See 42 U.S.C. 1320a–7b(d)(2) which prescribes
                                                                                                                  whether it exercised due diligence in
criminal penalties for knowingly and willfully           regulatory requirements should be taken
                                                                                                                  developing procedures and practices to
charging for services provided to a Medicaid patient     into consideration. In addition to
in excess of the rates established by the State; see                                                              implement the advice.
                                                         maintaining appropriate and thorough                        In short, all nursing facilities,
also 42 CFR 483.12(d).
   68 Under PPS, the payment rates represent
                                                         medical records on each resident, the                    regardless of size, must retain
payment in full, subject to applicable coinsurance.      OIG recommends that the system should                    appropriate documentation. Further, the
This includes payment for all costs associated with      include the following types of                           OIG recommends that the nursing
furnishing covered SNF services to Medicare              documents:                                               facility:
beneficiaries. It is impermissible for a hospital to        • All records and documentation
pay for SNF services if it were to do so only for                                                                    • Secure this information in a safe
those residents who are Medicare beneficiaries
                                                         (e.g., billing and claims documentation)
                                                                                                                  place;
                                                         required for participation in Federal
discharged from that hospital. However, it would be                                                                  • Maintain hard copies of all
permissible for a hospital to provide or pay for         State, and private health care programs,
items or services that are furnished to SNF residents                                                             electronic or database documentation;
                                                         including the resident assessment
generally, if such payments are made without                                                                      and
regard to the payment source for the individual
                                                         instrument, the comprehensive plan of                       • Limit access to such documentation
resident. In addition, a hospital and a SNF can enter    care and all corrective actions taken in                 to avoid accidental or intentional
into a permissible bed reservation agreement (See        response to surveys;                                     fabrication or destruction of records.75
HCFA Provider Reimbursement Manual, Part I,                 • All records and documentation
section 2105.3).                                                                                                     As the Government increases its
                                                         required by private payors and other
   69 All physician contracts and agreements should                                                               reliance on electronic data interchange
be reviewed to avoid violation of the anti-kickback,     governmental institutions;
                                                            • All records, documentation, and                     to conduct business and gather
self-referral, and other relevant Federal and State
laws. The OIG has published safe harbors that            audit data that support and explain cost                 information more quickly and
define practices not subject to the anti-kickback        reports and other financial activity,                    efficiently, it is important that the
statute, because such arrangements would be
                                                         including any internal or external                       nursing facility develops the capacity to
unlikely to result in fraud or abuse. Failure to                                                                  ensure that all informational systems
comply with a safe harbor provision does not make        compliance monitoring activities; and
an arrangement per se illegal. Rather, the safe             • All records necessary to                            maintained by the facility are in
harbors set forth specific conditions that, if fully     demonstrate the integrity of the nursing                 working order, secured, and capable of
met, would assure the entities involved of not being     facility compliance process and to                       accessing Federal and State databases.
prosecuted or sanctioned for the arrangement
qualifying for the safe harbor. One such safe harbor     confirm the effectiveness of the                         4. Compliance as an Element of
applies to personal services contracts (See 42 CFR       program.74                                               Employee Performance
1001.952(d)).
   70 See OIG Special Fraud Alert ‘‘Fraud and Abuse        73 ‘‘Swapping’’ occurs when a supplier gives a           Compliance programs should require
in the Provision of Medical Supplies to Nursing          nursing facility discounts on Medicare Part A items      that the promotion of, and adherence to,
Facilities’’ (August 1995). As well as violating the     and services in return for the referrals of Medicare     the elements of the compliance program
anti-kickback statute, both the supplier and the         Part B business. With swapping, there is a risk that
nursing facility may be liable for false claims if the
                                                                                                                  be a factor in evaluating the
                                                         suppliers may offer a SNF an excessively low price
medically unnecessary items are billed to Federal        for items or services reimbursed under PPS in            performance of all employees.
health care programs. See also OIG Advisory              return for the ability to service and bill nursing
Opinion No.99–2 (February 1999).                         facility residents with Part B coverage. See OIG         correspondence between carriers, fiscal
   77 In addition to raising concerns related to the     Advisory Opinion 99–2 (March 1999).                      intermediaries, private payor insurers, HCFA, and
anti-kickback statute, the unauthorized disclosure         74 Among the materials useful in documenting the       State survey and certification agencies.
of confidential records violates the resident’s rights   compliance program are employee certifications             75 In addition to prohibiting the falsification and
(See 42 CFR 10(e)).                                      relating to training and other compliance initiatives,   backdating of records, the provider should have
   72 See OIG Special Fraud Alert ‘‘Joint Venture        copies of compliance training materials, and hotline     clear guidelines, consistent with applicable
Arrangements’’ (August 1989); OIG Special Fraud          logs and any corresponding reports of investigation,     professional and legal standards, that set out the
Alert ‘‘Fraud and Abuse in the Provision of Services     outcomes, and employee disciplinary actions. In          circumstances when late entries may be made in a
in Nursing Facilities’’ (May 1996).                      addition, the facility should keep all relevant          record.
                         Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                                                58429

Employees should be periodically               necessitating the appointment of a high-                    • Coordinating personnel issues with
trained in new compliance policies and         level official with direct access to the                 the nursing facility’s Human Resources/
procedures. In addition, policies should       nursing facility’s president or CEO,                     Personnel office (or its equivalent) to
require that managers, especially those        governing body, all other senior                         ensure that (i) the National Practitioner
involved in the direct care of residents       management, and legal counsel.76 The                     Data Bank 78 has been checked with
and in claims development and                  officer should have sufficient funding                   respect to all medical staff and
submission:                                    and staff to perform his or her                          independent contractors (as
   • Discuss with all supervised               responsibilities fully.                                  appropriate) and (ii) the List of
employees and relevant contractors the            Coordination and communication are                    Excluded Individuals/Entities 79 has
compliance policies and legal                  the key functions of the compliance                      been checked with respect to all
requirements applicable to their               officer with regard to planning,                         employees, medical staff, and
function;                                      implementing, and monitoring the                         independent contractors; 80
   • Inform all supervised personnel           compliance program.                                         • Assisting the nursing facility’s
that strict compliance with these                 The compliance officer’s primary                      financial management in coordinating
policies and procedures is a condition         responsibilities should include:                         internal compliance review and
of employment; and                                • Overseeing and monitoring                           monitoring activities, including annual
   • Disclose to all supervised personnel      implementation of the compliance                         or periodic reviews of departments;
that the nursing facility will take            program; 77                                                 • Independently investigating and
disciplinary action up to and including           • Reporting on a regular basis to the                 acting on matters related to compliance,
termination for violation of these             nursing facility’s governing body, CEO,                  including the flexibility to design and
policies or requirements.                      and compliance committee (if                             coordinate internal investigations (e.g.,
   Managers and supervisors should be          applicable) on the progress of                           responding to reports of problems or
disciplined for failing to adequately          implementation, and assisting these                      suspected violations) and any resulting
instruct their subordinates or for failing     components in establishing methods to                    corrective action (e.g., making necessary
to detect noncompliance with                   improve the nursing facility’s efficiency                improvements to nursing facility
applicable policies and legal                  and quality of services, and to reduce                   policies and practices, taking
requirements, where reasonable                 the facility’s vulnerability to fraud,                   appropriate disciplinary action, etc.)
diligence would have led to the                abuse, and waste;                                        with all nursing facility departments,
discovery of any problems or violations           • Periodically revising the program in                subcontracted providers, and health
and given the nursing facility the             light of changes in the organization’s                   care professionals under the nursing
opportunity to correct them earlier.           needs, and in the law and policies of                    facility’s control;
Conversely, those supervisors who have                                                                     • Participating with facility’s counsel
                                               Government and private payor health
demonstrated leadership in the                                                                          in the appropriate reporting of self-
                                               plans;
                                                                                                        discovered violations of program
advancement of the company’s code of              • Developing, coordinating, and
conduct and compliance objectives                                                                       requirements; and
                                               participating in a multifaceted                             • Continuing the momentum of the
should be singled out for recognition.         educational and training program that                    compliance program after the initial
   The OIG believes that all nursing           focuses on the elements of the                           years of implementation.81
facilities, regardless of resources or size,   compliance program, and seeking to                          The compliance officer must have the
should ensure that its employees               ensure that all relevant employees and                   authority to review all documents and
understand the importance of                   management understand and comply                         other information that are relevant to
compliance with program requirements           with pertinent Federal and State                         compliance activities, including, but not
and the value the company places on its        standards;                                               limited to, medical and billing records,
compliance program. If the small                  • Ensuring that independent                           and documents concerning the
nursing facility does not have a formal        contractors and agents who furnish                       marketing efforts of the nursing facility
employee evaluation system, it should          physician, nursing, or other health care                 and its arrangements with other health
informally convey to employees their           services to the residents of the nursing                 care providers, including physicians
compliance responsibilities whenever           facility are aware of the requirements of                and independent contractors. This
the opportunity arises. Positive               the nursing facility’s compliance                        review authority enables the compliance
reenforcement is generally more                program with respect to residents’                       officer to examine contracts and
effective than sanctions in conditioning       rights, billing, and marketing, among                    obligations (seeking the advice of legal
behavior and managers should be given          other things;                                            counsel, where appropriate) that may
mechanisms to reward employees who                                                                      contain referral and payment provisions
promote compliance.                               76 The OIG believes it is not advisable for the
                                                                                                        that could violate the anti-kickback
                                               compliance function to be subordinate to the
C. Designation of a Compliance Officer         nursing facility’s general counsel, or comptroller or
                                                                                                        statute or regulatory requirements.
and a Compliance Committee                     similar financial officer. Free standing compliance
                                               functions help to ensure independent and objective         78 See note 60.
1. Compliance Officer                          legal reviews and financial analysis of the                79 See note 61.
                                               institution’s compliance efforts and activities. By        80 The compliance officer may also have to ensure
  Every nursing home provider should           separating the compliance function from the key          that the criminal backgrounds of employees have
designate a compliance officer to serve        management positions of general counsel or chief         been checked depending upon State requirements
as the focal point for compliance              financial officer (where the size and structure of the   or nursing facility policy.
activities. This responsibility may be the     nursing facility make this a feasible option), a           81 There are many approaches the compliance
                                               system of checks and balances is established to          officer may enlist to maintain the vitality of the
individual’s sole duty or added to other       more effectively achieve the goals of the compliance     compliance program. Periodic on-site visits of
management responsibilities, depending         program.                                                 nursing facility operations, bulletins with
upon the size and resources of the                77 For multi-facility organizations, the OIG          compliance updates and reminders, distribution of
nursing facility and the complexity of         encourages coordination with each facility owned         audiotapes or videotapes on different risk areas,
                                               by the corporation through the use of a                  lectures at management and employee meetings,
the task. Designating a compliance             headquarter’s compliance officer, communicating          and circulation of recent health care articles
officer with the appropriate authority is      with parallel positions or compliance liaison in         covering fraud and abuse are some examples of
critical to the success of the program,        each facility or regional office, as appropriate.        approaches the compliance officer can employ.
58430                        Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices

   A small nursing facility may not have              promote compliance with legal and                         The organization must take steps to
the resources to hire or appoint a full               ethical requirements;                                  communicate effectively its standards
time compliance officer. Multi-facility                  • Recommending and monitoring, in                   and procedures to all affected
providers also may consider appointing                conjunction with the relevant                          employees, physicians, independent
one compliance officer at the corporate               departments, the development of                        contractors, and other significant agents
level and creating compliance liaisons                internal systems and controls to carry                 by requiring participation in such
officers at each facility. In any event,              out the organization’s policies;                       training programs and by other means,
each facility should have a person in its                • Determining the appropriate                       such as disseminating publications that
organization (this person may have                    strategies and approaches to promote                   explain specific requirements in a
other functional responsibilities) who                compliance with program requirements                   practical manner.85
can oversee the nursing facility’s                    and detection of any potential                            Managers of specific departments or
compliance with applicable statutes,                  violations, such as through hotlines and               groups can assist in identifying areas
rules, regulations, and policies. The                 other fraud reporting mechanisms;                      that require training and in carrying out
structure and comprehensiveness of the                   • Developing a system to solicit,                   such training.86 Training instructors
facility’s compliance program will help               evaluate, and respond to complaints and                may come from outside or inside the
determine the responsibilities of each                problems; and                                          organization, but must be qualified to
individual compliance officer.                           • Monitoring internal and external                  present the subject matter involved and
                                                      audits and investigations for the                      sufficiently experienced in the issues
2. Compliance Committee                               purpose of identifying deficiencies, and               presented to adequately field questions
  The OIG recommends that a                           implementing corrective action.                        and coordinate discussions among those
compliance committee be established to                   The committee may also undertake                    being trained.
advise the compliance officer and assist              other functions as the compliance                         The nursing facility should train new
in the implementation of the                          concept becomes part of the overall                    employees soon after they have started
compliance program.82 When                            nursing facility operating structure and               working.87 Training programs and
developing an appropriate team of                     daily routine. The compliance                          materials should be designed to take
people to serve as the nursing facility’s             committee is an extension of the                       into account the skills, experience, and
compliance committee, a facility should               compliance officer and provides the                    knowledge of the individual trainees.
consider a variety of skills and                      organization with increased oversight.                 The compliance officer should
personality traits that are expected from             The OIG recognizes that some nursing                   document any formal training
those in such positions.83 Once a                     facilities may not have the resources or               undertaken by the nursing facility as
nursing facility chooses the people that              the need to establish a compliance                     part of the compliance program.
                                                      committee. However, when potential                        A variety of teaching methods, such
will accept the responsibilities vested in
                                                      problems are identified, the OIG                       as interactive training, and where a
members of the compliance committee,
                                                      recommends these nursing facilities                    nursing facility has a culturally diverse
the nursing facility needs to train these
                                                      create a ‘‘task force,’’ to address the                staff, training in different languages,
individuals on the policies and
                                                      particular problem. The members of the                 should be implemented so that all
procedures of the compliance program,
                                                      task force may vary depending upon the                 affected employees understand the
as well as how to discharge their duties.
                                                      issue. For example, if problems are                    institution’s standards of conduct and
  The committee’s functions should                                                                           procedures for alerting senior
include:                                              identified as a result of a State or
                                                      Federal survey, the OIG recommends                     management to problems and
  • Analyzing the legal requirements                                                                         concerns.88
with which the nursing facility must                  that a task force be created to examine
                                                      the deficiencies identified by the survey                 In addition to specific training in the
comply, and specific risk areas;                                                                             risk areas identified in section II.B.2,
                                                      and to develop plans of actions to
  • Assessing existing policies and                                                                          primary training for appropriate
                                                      correct the underlying causes of the
procedures that address these risk areas                                                                     corporate officers, managers, and facility
                                                      deficiency.
for possible incorporation into the                                                                          staff should include such topics as:
compliance program;                                   D. Conducting Effective Training and                      • Compliance with Medicare
  • Working with appropriate                          Education                                              conditions of participation;
departments to develop standards of                      The proper education and training of
conduct, and policies and procedures to               corporate officers, managers and health                a nursing facility may regularly schedule to provide
                                                                                                             an ongoing program for the training of employees
                                                      care professionals, and the continual                  as required by its conditions of participation.
   82 The compliance committee benefits from
                                                      retraining of current personnel at all                    85 Some publications, such as OIG’s Special Fraud
having the perspectives of individuals with varying                                                          Alerts, audit and inspection reports, and advisory
responsibilities in the organization, such as
                                                      levels are critical elements of an
                                                                                                             opinions are readily available from the OIG and can
operations, finance, audit, human resources, and      effective compliance program. These                    provide a basis for educational courses and
clinical management (e.g., the nursing facility       training programs should include                       programs for appropriate nursing facility
physician), as well as employees and managers of      sessions summarizing the organization?s                employees.
key operating units. The compliance officer should                                                              86 Significant variations in the functions and
be an integral member of the committee as well. All
                                                      compliance program, fraud and abuse
                                                                                                             responsibilities of different departments or groups
committee members should have the requisite           laws and Federal and private payor                     may create the need for training materials that are
seniority and comprehensive experience within         health care program requirements. More                 tailored to compliance concerns associated with
their respective departments to implement any         specific training on issues such as                    particular operations and duties.
necessary changes to policies and procedures as                                                                 87 Certain positions, such as those that involve
recommended by the committee.
                                                      claims development and submission
                                                                                                             billing, coding and the submission of
   83 A health care provider should expect its        processes, resident rights, and                        reimbursement data, create greater organizational
compliance committee members and compliance           marketing practices should be targeted                 legal exposure, and therefore require specialized
officer to demonstrate high integrity, good           at those employees and contractors                     training. Those hired to treat residents should
judgment, assertiveness, and an approachable          whose job requirements make the                        undergo specialized training in residents’ rights and
demeanor, while eliciting the respect and trust of                                                           survey and certification procedures.
employees of the nursing facility. These              information relevant.84                                   88 Post-training tests can be used to assess the
interpersonal skills are as important as the                                                                 success of training provided and employee
professional experience of each member of the           84 Specific compliance training should               comprehension of the nursing facility’s policies and
compliance committee.                                 complement any ‘‘in-service’’ training sessions that   procedures.
                              Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                                                   58431

   • Appropriate and sufficient                        E. Developing Effective Lines of                         family members by circulating the
documentation;                                         Communication                                            number on wallet cards or
   • Prohibitions on paying or receiving                                                                        conspicuously posting the telephone
                                                       1. Access to the Compliance Officer
remuneration to induce referrals;                                                                               number in common work areas.95
                                                          In order for a compliance program to                  Employees should be permitted to
   • Improper alterations to clinical or               work, employees must be able to ask                      report matters on an anonymous basis.
financial records;                                     questions and report problems. The first                 Matters reported through the hotline or
   • Resident rights; and                              line supervisors play a key role in                      other communication sources that
                                                       responding to employee concerns and it                   suggest substantial violations of
   • The duty to report misconduct.
                                                       is appropriate that they serve as a first                compliance policies or Federal health
   The OIG suggests that all relevant                  line of communications. In order to                      care program statutes and regulations
personnel participate in the various                   encourage communications,                                should be documented and investigated
educational and training programs of                   confidentiality and non-retaliation                      promptly to determine their veracity.
the nursing facility.89 Employees should               policies should be developed and                         The compliance officer should maintain
be required to have a minimum number                   distributed to all employees.91                          a log that records such calls, including
of educational hours per year, as                         Open lines of communication                           the nature of any investigation and its
appropriate, as part of their employment               between the compliance officer and                       results.96 Such information, redacted of
responsibilities.90 For example, for                   nursing facility employees is equally                    individual identifiers, should be
certain employees involved in the                      important to the successful                              included in reports to the governing
nursing facility admission functions,                  implementation of a compliance                           body, the CEO, and compliance
periodic training in applicable                        program and the reduction of any                         committee.97 While the nursing facility
reimbursement coverage and eligibility                 potential for fraud and abuse. In
                                                                                                                should always strive to maintain the
requirements should be required. In                    addition to serving as a contact point for
                                                                                                                confidentiality of an employee’s
nursing facilities with high employee                  reporting problems, the compliance
                                                                                                                identity, it should also make clear that
turnover, periodic training updates are                officer should be viewed as someone to
                                                                                                                there may be a point where the
critical.                                              whom personnel can go to get
                                                                                                                individual’s identity may become
   The OIG recognizes that the format of               clarification on the facility’s policies.
                                                                                                                known or may have to be revealed in
the training program will vary                         Questions and responses should be
                                                                                                                certain instances. The OIG recognizes
depending upon the resources of the                    documented and dated and, if
                                                                                                                that protecting anonymity may be
nursing facility. For example, a nursing               appropriate, shared with other staff so
                                                                                                                infeasible for small nursing facilities.
facility with limited resources may want               that standards can be updated and
                                                                                                                However, the OIG believes all facility
to create a videotape for each type of                 improved to reflect any necessary
                                                                                                                employees, when seeking answers to
training session so new employees can                  changes or clarifications.92
                                                                                                                questions or reporting potential
receive training in a timely manner. If                2. Hotlines and Other Forms of                           instances of fraud and abuse, should
videos are used for compliance training,               Communication                                            know to whom to turn for attention and
the OIG suggests that a nursing facility                                                                        should be able to do so without fear of
                                                          The OIG encourages the use of
make an individual available to field                                                                           retribution.
                                                       hotlines,93 e-mails, newsletters,
questions from video trainees.
                                                       suggestion boxes, and other forms of                     F. Auditing and Monitoring
   The OIG recommends that                             information exchange to maintain open
participation in training programs be                  lines of communication.94 If the nursing                   The OIG believes that an effective
made a condition of continued                          facility establishes a hotline, the                      program should incorporate thorough
employment and that failure to comply                  telephone number should be made                          monitoring of its implementation and an
with training requirements should result               readily available to all employees,                      ongoing evaluation process. The
in disciplinary action, when such                      independent contractors, residents, and                  compliance officer should document
failure is serious. Adherence to the                                                                            this ongoing monitoring, including
training requirements as well as other                    91 In some cases, employees sue their employers       reports of suspected noncompliance,
provisions of the compliance program                   under the False Claims Act’s qui tam provisions out      and share these assessments with the
should be a factor in the annual                       of frustration because of the company’s failure to       nursing facility’s senior management
                                                       take action when the employee brought a
evaluation of each employee. The                       questionable, fraudulent, or abusive situation to the
                                                                                                                and the compliance committee. The
nursing facility should retain adequate                attention of senior corporate officials. Whistle         extent and frequency of the compliance
records of its training of employees,                  blowers must be protected against retaliation, a         audits may vary depending on variables
including attendance logs and material                 concept embodied in the provisions of the False          such as the nursing facility’s available
                                                       Claims Act (See 31 U.S.C. 3730(h)).
distributed at training sessions.                         92 Nursing facilities can also consider rewarding
                                                                                                                resources, prior history of
                                                       employees for appropriate use of established
   89 In addition, where feasible, the OIG             reporting systems. After all, the employee who             95 Nursing facilities should also post in a

recommends that a nursing facility give vendors        identifies and helps stop an abusive practice can        prominent area the HHS–OIG Hotline telephone
and outside contractors the opportunity to             benefit the corporation as much as one who               number, 1–800–447–8477 (1–800–HHS–TIPS).
participate in the nursing facility’s compliance       identifies cost-savings measures or increases              96 To efficiently and accurately fulfill such an

training and educational programs. Such training is    corporate revenues.                                      obligation, the nursing facility should create an
particularly important for facilities that rely on        93 The OIG recognizes that it may not be              intake form for all compliance issues identified
agencies to provide temporary direct care staff. The   financially feasible for a smaller nursing facility to   through reporting mechanisms. The form could
introduction of consolidated billing gives added       maintain a telephone hotline dedicated to receiving      include information concerning the date that the
importance to educating vendors about the facility’s   calls about compliance issues. These companies           potential problem was reported, the results of the
compliance policies and procedures.                    may want to explore alternative methods, e.g.,           internal investigation, and, as appropriate, the
   90 Currently, the OIG is monitoring a significant   outsourcing the hotline or establishing a written        corrective action implemented, the disciplinary
number of corporate integrity agreements that          method of confidential disclosure.                       measures imposed, and/or any identified
require many of these training elements. The OIG          94 In addition, an effective employee exit            overpayments returned.
usually requires a minimum of one to three hours       interview program could be designed to solicit             97 Information obtained over the hotline may

annually for basic training in compliance areas.       information from departing employees regarding           provide valuable insight into management practices
Additional training is required for specialty fields   potential misconduct and suspected violations of         and operations, whether reported problems are
such as claims development and billing.                nursing facility policy and procedures.                  actual or perceived.
58432                         Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices

noncompliance, and the risk factors                     detailed explanation of the reason for                 the nursing facility’s employees and
particular to the facility.98                           the refund.102                                         staff;
   Although many assessment                                In addition to evaluating the facility’s               • Validation of qualifications of
techniques are available, one effective                 conformance with program rules, an                     nursing facility physicians and other
                                                        effective compliance program should                    staff, including verification of
tool is the performance of regular,
                                                        also incorporate periodic (at least                    applicable State license renewals;
periodic compliance audits by internal
                                                        annual) reviews of whether the                            • Trend analysis, or longitudinal
or external evaluators who have
                                                        program’s compliance elements have                     studies, that uncover deviations in
expertise in Federal and State health
                                                        been satisfied, e.g., whether there has                specific areas over a given period;
care statutes, regulations, and program                                                                           • Analyzing past survey reports for
                                                        been appropriate dissemination of the
requirements, as well as private payor                  program’s standards, ongoing                           patterns of deficiencies to determine if
rules. These assessments should focus                   educational programs, and internal                     the proposed corrective plan of action
both on the nursing facility’s day-to-day               investigations of alleged non-                         identified the underlying problem and
operations, as well as its adherence to                 compliance. This process will assess                   was undertaken within the assigned
the rules governing claims development,                 actual conformance by all departments                  time limits.
billing and cost reports, and                           with the compliance program and may                       The reviewers should:
relationships with third parties. The                   identify areas for improvements in the                    • Have the qualifications and
reviews also should address the nursing                 program, as well as the nursing facility’s             experience necessary to adequately
facility’s compliance with the Medicare                 general operations.                                    identify potential issues with the subject
conditions of participation and the                        The OIG requires a provider operating               matter that is reviewed;
specific rules and policies that have                   under a CIA to conduct an annual                          • Be objective and independent of
been the focus of particular attention by               assessment of its compliance with the                  line management to the extent
the Medicare fiscal intermediaries or                   elements of the CIA. A compliance                      reasonably possible;104
carriers, survey agencies, and law                      officer may want to review several CIAs                   • Have access to existing audit and
enforcement.99                                          in designing the facility’s self-audit                 health care resources, relevant
   Monitoring techniques may include                    protocol.103                                           personnel, and all relevant areas of
sampling protocols that permit the                         As part of the review process, the                  operation;
                                                        compliance officer or reviewers should                    • Present written evaluative reports
compliance officer to identify and
                                                        consider techniques such as:                           on compliance activities to the CEO,
review variations from an established
                                                           • On-site visits to all facilities owned            governing body, and members of the
performance baseline.100 Significant                                                                           compliance committee on a regular
                                                        and/or operated by the nursing home
variations from the baseline should                                                                            basis, but no less often than annually;
                                                        owner;
trigger an inquiry to determine the cause                  • Testing the billing and claims                    and
of the deviation. If the inquiry                        reimbursement staff on its knowledge of                   • Specifically identify areas where
determines that the deviation occurred                  applicable program requirements and                    corrective actions are needed.
for legitimate reasons, the compliance                  claims and billing criteria;                              The extent and scope of a nursing
officer and nursing facility management                    • Unannounced mock surveys and                      facility’s compliance self-audits will
may want to take no action. If it is                    audits;                                                depend on the facility’s identified risk
determined that the deviation was                          • Examination of the organization’s                 areas, past history of deficiencies and
caused by a departure from or                           complaint logs and investigative files;                enforcement actions, and resources. If
misunderstanding of the facility’s                         • Legal assessment of all contractual               the facility comes under Government
policies, the nursing facility should take              relationships with contractors,                        scrutiny in the future, the Government
prompt steps to correct the problem.                    consultants and potential referral                     will assess whether the facility
Any overpayments discovered as a                        sources;                                               developed a reasonable audit plan based
result of such deviations should be                        • Reevaluation of deficiencies cited                upon identified risk areas and resources.
returned promptly to the affected                       in past surveys for State requirements                 If the Government determines that the
payor,101 with appropriate                              and Medicare conditions of                             nursing facility failed to develop an
documentation and a sufficiently                        participation;                                         adequate audit program, the
                                                           • Checking personnel records to                     Government will be less likely to afford
   98 Even when a nursing facility or group of          determine whether individuals who                      the nursing facility favorable treatment
facilities is owned by a larger corporate entity, the   previously have been reprimanded for                   under the Federal Sentencing
regular auditing and monitoring of the compliance       compliance issues are now conforming                   Guidelines.
activities of an individual facility must be a key      to facility policies;
feature in any annual review. Appropriate reports
on audit findings should be periodically provided          • Questionnaires developed to solicit               G. Enforcing Standards Through Well-
and explained to a parent organization’s senior staff   impressions of a broad cross-section of                Publicized Disciplinary Guidelines
and officers.
   99 See also section II.B.2.                            102 In
                                                                                                               1. Disciplinary Policy and Enforcement
                                                                 addition, when appropriate, as referenced
   100 The OIG recommends that when a compliance        in section H.2, below, reports of fraud or systemic       An effective compliance program
program is established in a nursing facility, the       problems should also be made to the appropriate        should include disciplinary policies
compliance officer, with the assistance of              governmental authority.
department managers, should take a ‘‘snapshot’’ of        103 Examples of CIA audit protocols can be
                                                                                                               that set out the consequences of
their operations from a compliance perspective.         obtained from the OIG by submitting a request          violating the nursing facility’s standards
This assessment can be undertaken by outside            pursuant to the Freedom of Information Act. In         of conduct, policies and procedures.
consultants or internal staff, provided they have       addition, the American Institute of Certified Public   Intentional noncompliance should
knowledge of health care program requirements.          Accountants (AICPA) has issued a detailed guide
This ‘‘snapshot’’ can serve as a baseline for the
                                                                                                               subject transgressors to significant
                                                        for conducting an independent assessment of a
compliance officer and other managers to judge the      health care provider’s conformance to a CIA. See       sanctions. Such sanctions could range
nursing facility’s progress in reducing potential       AICPA Statement of Position 99–1, ‘‘Guidance to
areas of vulnerability.                                 Practitioners in Conducting and Reporting on an          104 The OIG recognizes that nursing facilities that
   101 See Provider Reimbursement Manual 1,             Agreed-Upon Procedures Engagement to Assist in         have limited resources may not be able to use
§ 2836(D)(3), which sets out the MDS correction         Evaluating Compliance with a Corporate Integrity       internal reviewers who are not part of line
policy.                                                 Agreement’’ ( May 1999).                               management or hire outside reviewers.
                        Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                                                   58433

from oral warnings to suspension,             decisive steps to correct the problem.105                necessarily vary depending upon the
termination, or financial penalties, as       As appropriate, such steps may include                   situation, nursing facilities should strive
appropriate. Disciplinary action may be       a corrective action plan,106 the return of               for some consistency by using sound
appropriate where a responsible               any overpayments, a report to the                        practices and disciplinary protocols.108
employee’s failure to detect a violation      Government,107 and/or a referral to                      Further, the compliance officer should
is attributable to his or her negligence or   criminal and/or civil law enforcement                    review the circumstances that formed
reckless conduct. Each situation must be      authorities.                                             the basis for the investigation to
considered on a case-by-case basis to            Where potential fraud is not involved,                determine whether similar problems
determine the appropriate response.           the OIG recommends that the nursing                      have been uncovered or modifications
                                              facility use normal repayment channels                   of the compliance program are
   The written standards of conduct
                                              to return overpayments as they are                       necessary to prevent and detect other
should elaborate on the procedures for        discovered. However, even if the                         inappropriate conduct or violations.
handling disciplinary problems and            nursing facility’s billing department is                    If the nursing facility undertakes an
those who will be responsible for taking      effectively using the overpayment                        investigation of an alleged violation and
appropriate action. Some disciplinary         detection and return process, the OIG                    the compliance officer believes the
actions can be handled by department          believes that the facility needs to alert                integrity of the investigation may be at
or agency managers, while others may          the compliance officer to those                          stake because of the presence of
have to be resolved by a senior               overpayments that may reveal trends or                   employees under investigation, the
administrator. The nursing facility           patterns indicative of a systemic                        facility should remove those individuals
should advise personnel that                  problem.                                                 from their current responsibilities until
disciplinary action will be taken on a           Depending upon the nature of the                      the investigation is completed (unless
fair and equitable basis. Managers and        alleged violations, an internal                          there is an ongoing internal or
supervisors should be made aware that         investigation will probably include                      Government-led undercover operation
they have a responsibility to discipline      interviews and a review of relevant                      known to the nursing facility). In
employees in an appropriate and               documents. Under some circumstances,                     addition, the compliance officer should
consistent manner.                            the facility may need to consider                        take appropriate steps to secure or
   It is vital to publish and disseminate     engaging outside counsel, auditors, or                   prevent the destruction of documents or
the range of disciplinary standards for       health care experts to assist in an                      other evidence relevant to the
improper conduct and to educate               investigation. Records of the                            investigation. If the nursing facility
employees regarding these standards.          investigation should contain                             determines that disciplinary action is
The consequences of noncompliance             documentation of the alleged violation,                  warranted, it should be promptly
should be consistently applied and            a description of the investigative                       imposed in accordance with the
enforced, in order for the disciplinary       process (including the objectivity of the                facility’s written standards of
policy to have the required deterrent         investigators and methodologies                          disciplinary action.
effect. All levels of employees should be     utilized), copies of interview notes and
                                              key documents, a log of the witnesses                    Reporting
potentially subject to the same types of
disciplinary action for the commission        interviewed and the documents                              Where the compliance officer,
of similar offenses, because the              reviewed, the results of the                             compliance committee, or a
commitment to compliance applies to           investigation, e.g., any disciplinary                    management official discovers credible
all personnel within a nursing facility.      action taken, and the corrective action                  evidence of misconduct from any source
This means that corporate officers,           implemented. While any action taken as                   and, after a reasonable inquiry, has
managers, and supervisors should be           the result of an investigation will                      reason to believe that the misconduct
held accountable for failing to comply                                                                 may violate criminal, civil or
with, or for the foreseeable failure of
                                                 105 Instances of noncompliance must be
                                                                                                       administrative law, the facility should
                                              determined on a case-by-case basis. The existence        promptly report the existence of
their subordinates to adhere to, the          or amount of a monetary loss to a health care
applicable standards, laws, and               program is not solely determinative of whether the       misconduct to the appropriate Federal
procedures.                                   conduct should be investigated and reported to           and State authorities109 within a
                                              governmental authorities. In fact, there may be          reasonable period, but not more than 60
H. Responding to Detected Offenses and        instances where there is no readily identifiable
                                                                                                       days110 after determining that there is
                                              monetary loss, but corrective actions are still
Developing Corrective Action Initiatives      necessary to protect the integrity of the applicable
                                                                                                         108 The parameters of a claims review subject to
                                              program and its beneficiaries, e.g., where services
   Violations of a nursing facility’s         required by a plan of care are not provided.             an internal investigation will depend on the
compliance program, failures to comply           106 The nursing facility may seek advice from its     circumstances surrounding the issues identified. By
with applicable Federal or State law,         in-house counsel or an outside law firm to               limiting the scope of an internal audit to current
                                              determine the extent of the facility’s liability and     billing, a nursing facility may fail to discover major
and other types of misconduct threaten                                                                 problems and deficiencies in operations, and it may
                                              to plan the appropriate course of action.
a facility’s status as a reliable, honest        107 Nursing facilities are required to immediately    be subject to certain liability.
and trustworthy provider of health care.      report all alleged incidents of mistreatment, neglect,     109 Appropriate Federal and State authorities

Detected but uncorrected misconduct           abuse and misappropriation of resident property to       include the OIG, the Criminal and Civil Divisions
can seriously endanger the reputation         both the facility administrator and other officials in   of the Department of Justice, the U.S. Attorney in
                                              accordance with State law (See 42 CFR                    relevant districts, the Federal Bureau of
and legal status of the nursing facility.     483.13(c)(2)). The OIG also has established a            Investigation, and the other investigative arms for
Consequently, upon receipt of reports or      provider self-disclosure protocol that encourages        the agencies administering the affected Federal or
reasonable indications of suspected           providers voluntarily to report suspected fraud. The     State health care programs, such as the State
noncompliance, it is important that the       concept of voluntary self-disclosure is premised on      Medicaid Fraud Control Unit, the Defense Criminal
                                              a recognition that the Government alone cannot           Investigative Service, the Department of Veterans
compliance officer or other management        protect the integrity of the Medicare and other          Affairs, and the Office of Personnel Management
officials immediately investigate the         Federal health care programs. Health care providers      (which administers the Federal Employee Health
allegations to determine whether a            must be willing to police themselves, correct            Benefits Program). See note 107.
material violation of applicable law or       underlying problems, and work with the                     110 In contrast, to qualify for the ‘‘not less than

                                              Government to resolve these matters. The self-           double damages’’ provision of the False Claims Act,
the requirements of the compliance            disclosure protocol can be located on the OIG’s web      the provider must provide the report to the
program has occurred, and if so, take         site at: http://www.hhs.gov/oig.                                                                      Continued
58434                          Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices

credible evidence of a violation.111                     overpayments.113 A knowing and                          practices measure up is to observe how
Prompt voluntary reporting will                          willful failure to disclose overpayments                an organization’s employees react to
demonstrate the nursing facility’s good                  within a reasonable period of time could                them. Do employees experience
faith and willingness to work with                       be interpreted as an attempt to conceal                 recurring pitfalls because the guidance
governmental authorities to correct and                  the overpayment from the Government,                    on certain issues is not adequately
remedy the problem. In addition,                         thereby establishing an independent                     covered in company policies? Do
reporting such conduct will be                           basis for a criminal violation with                     employees flagrantly disobey an
considered a mitigating factor by the                    respect to the nursing facility, as well as             organization’s standards of conduct
OIG in determining administrative                        any individual who may have been                        because they observe no sincere buy-in
sanctions (e.g., penalties, assessments,                 involved.114 For this reason, nursing                   from senior management? Do employees
and exclusion), if the reporting provider                facility compliance programs should                     have trouble understanding policies and
becomes the target of an OIG                             emphasize that overpayments should be                   procedures because they are written in
investigation.112                                        promptly disclosed and returned to the                  legalese or at difficult reading levels?
   When reporting to the Government, a                   entity that made the erroneous payment.                 Does an organization routinely
nursing facility should provide all                                                                              experience systematic billing failures
                                                         III. Assessing the Effectiveness of a                   because of poor instructions to
evidence relevant to the alleged                         Compliance Program
violation of applicable Federal or State                                                                         employees on how to implement written
                                                            Considering the financial and human                  policies and practices? Written
law(s) and potential cost impact. The
                                                         resources needed to establish an                        compliance policies, standards, and
compliance officer, under advice of
                                                         effective compliance program, sound                     practices are only as good as an
counsel and with guidance from the
                                                         business principles dictate that the                    organization’s commitment to apply
governmental authorities, could be
                                                         nursing home’s management evaluate                      them in practice.
requested to continue to investigate the
                                                         the return on that investment. In                          Every nursing facility needs to
reported violation. Once the
                                                         addition, a compliance program must be                  seriously consider whoever fills the
investigation is completed, the                                                                                  integral roles of compliance officer and
                                                         ‘‘effective’’ for the Government to view
compliance officer should notify the                                                                             compliance committee members, and
                                                         its existence as a mitigating factor when
appropriate governmental authority of                                                                            periodically monitor how the
                                                         assessing culpability. How a nursing
the outcome of the investigation,                                                                                individuals chosen satisfy their
                                                         facility assesses its compliance program
including a description of the impact of                                                                         responsibilities. Does a compliance
                                                         performance is therefore integral to its
the alleged violation on the operation of                                                                        officer have sufficient professional
                                                         success. The attributes of each
the applicable health care programs or                                                                           experience working with billing,
                                                         individual element of a compliance
their beneficiaries. If the investigation                                                                        clinical records, documentation, and
                                                         program must be evaluated in order to
ultimately reveals that criminal, civil or                                                                       auditing principles to perform assigned
                                                         assess the program’s ‘‘effectiveness’’ as
OIG violations have occurred, the                                                                                responsibilities fully? Has a compliance
                                                         a whole. Examining the
nursing facility should immediately                                                                              officer or compliance committee been
                                                         comprehensiveness of policies and
notify appropriate Federal and State                                                                             unsuccessful in fulfilling their duties
                                                         procedures implemented to satisfy these
authorities.                                                                                                     because of inadequate funding, staff,
                                                         elements is merely the first step.
   As previously stated, the nursing                     Evaluating how a compliance program                     and authority necessary to carry out
facility should take appropriate                         performs during the provider’s day-to-                  their jobs? Did the addition of the
corrective action, including prompt                      day operations becomes the critical                     compliance officer function to a key
identification of any overpayment to the                 indicator.115                                           management position with other
affected payor. If potential fraud is                       As previously stated, a compliance                   significant duties compromise the goals
involved, the nursing facility should                    program should require the                              of the compliance program (e.g., chief
return any overpayment during the                        development and distribution of written                 financial officer who discounts certain
course of its disclosure to the                          compliance policies, standards, and                     overpayments identified to improve the
Government. Otherwise, the nursing                       practices that identify specific areas of               company’s bottom line profits)? Since a
facility should use normal repayment                     risk and vulnerability. One way to judge                compliance officer and a compliance
channels for reimbursing identified                      whether these policies, standards, and                  committee can have a significant impact
                                                                                                                 on how effectively a compliance
Government within 30 days after the date when the          113 A nursing facility should consult with its        program is implemented, those
provider first obtained the information. 31 U.S.C.       Medicare fiscal intermediary (FI) and the               functions should not be taken for
3729(a).                                                 appropriate sections of the PRM for additional          granted.
   111 Some violations may be so serious that they       guidance regarding refunds under Medicare Part A.          As evidenced throughout this
warrant immediate notification to governmental           See note 101. The FI may require certain
authorities prior to, or simultaneous with,              information (e.g., alleged violation or issue causing   guidance, the proper education and
commencing an internal investigation. By way of          overpayment, description of the internal                training of corporate officers, managers,
example, the OIG believes a provider should report       investigative process with methodologies used to        health care professionals, and other
misconduct that: (1) is a clear violation of OIG         determine any overpayments, and corrective actions      applicable employees of a provider, and
administrative authorities, civil fraud, or criminal     taken, etc.) to be submitted with return of any
laws; (2) has a significant adverse effect on the        overpayments, and that such repayment                   the continual retraining of current
quality of care provided to residents (in addition to    information be submitted to a specific department       personnel at all levels, are significant
any other legal obligations regarding quality of         or individual. When appropriate, interest may be        elements of an effective compliance
care); or (3) indicates evidence of a systemic failure   assessed on the overpayment. See 42 CFR 405.376.        program. Accordingly, such efforts
to comply with applicable laws or an existing              114See 42 U.S.C. 1320a–7b(a)(3) and 18 U.S.C.

corporate integrity agreement, regardless of the         669.
                                                                                                                 should be routinely evaluated. Are
financial impact on Federal health care programs.          115 Evaluation may be accomplished through            employees trained frequently enough?
   112 The OIG has published criteria setting forth      techniques such as employee surveys, management         Do employees fail post-training tests
those factors that the OIG takes into consideration      assessments, and periodic review of benchmarks          that evaluate knowledge of compliance?
in determining whether it is appropriate to exclude      established for audits, investigations, disciplinary    Do training sessions and materials
a health care provider from program participation        action, overpayments, and employee feedback. The
pursuant to 42 U.S.C. 1 320a-7(b)(7) for violations      nursing facility should evaluate all elements of its
                                                                                                                 adequately summarize important
of various fraud and abuse laws. See 62 FR 67392         compliance program, including policies, training,       aspects of the organization’s compliance
(December 24, 1997).                                     practices, and compliance personnel.                    program, such as fraud and abuse laws,
                        Federal Register / Vol. 64, No. 209 / Friday, October 29, 1999 / Notices                             58435

Federal health care program and private      process. The extent and frequency of the     strongly endorsed. A documented
payor requirements, and claims               audit function may vary depending on         practice of refunding of overpayments
development and submission processes?        factors such as the size and available       and self-disclosing incidents of non-
Are training instructors qualified to        resources, prior history of                  compliance with Federal and private
present the subject matter and               noncompliance, and risk factors of a         payor health care program requirements
experienced enough to field questions?       particular nursing facility. The hallmark    is powerful evidence of a meaningful
When thorough compliance training is         of effective monitoring and auditing         compliance effort.
periodically conducted, employees            efforts is how an organization
receive the reinforcement they need to       determines the parameters of its             IV. Conclusion
ensure an effective compliance program.      reviews. Do audits focus on all pertinent       Through this document, the OIG has
   An open line of communication             departments of an organization? Does an      attempted to provide a foundation for
between the compliance officer and a         audit cover compliance with all              the process necessary to develop an
provider’s employees is equally              applicable laws, as well as Federal and      effective and cost-efficient nursing
important to the success of a                private payor requirements? Are results      facility compliance program. However,
compliance program. In today’s               of past audits, pre-established baselines,   each program must be tailored to fit the
intensive regulatory environment, the        or prior deficiencies reevaluated? Are       needs and resources of a particular
OIG believes that a provider cannot          the elements of the compliance program       facility, depending upon its unique
possibly have an effective compliance        monitored? Are auditing techniques           corporate structure, mission, and
program if it receives minimal feedback      valid and conducted by objective             employee composition. The statutes,
from its employees regarding                 reviewers? The extent and sincerity of       regulations, and guidelines of the
compliance matters. For instance, if a       an organization’s efforts to confirm its     Federal and State health insurance
compliance officer does not receive          compliance often proves to be a              programs, as well as the policies and
appropriate inquiries from employees:        revealing determinant of a compliance        procedures of the private health plans,
Do policies and procedures fail to           program’s effectiveness.                     should be integrated into every nursing
adequately guide employees to whom              It is essential that the compliance       facility’s compliance program.
and when they should be                      officer or other management officials           The OIG recognizes that the health
communicating compliance matters? Do         immediately investigate reports or           care industry in this country, which
employees fear retaliation if they report    reasonable indications of suspected          reaches millions of beneficiaries and
misconduct? Are employees reporting          noncompliance. If a material violation       expends about a trillion dollars
issues not related to compliance through     of applicable law or compliance              annually, is constantly evolving. The
the wrong channels? Do employees have        program requirements has occurred, a         time is right for nursing facilities to
bad-faith, ulterior motives for reporting?   provider must take decisive steps to         implement a strong voluntary health
Regardless of the means that a provider      correct the problem. Nursing facilities      care compliance program. Compliance
uses, whether it be telephone hotline,       that do not thoroughly investigate           is a dynamic process that helps to
email, or suggestion boxes, employees        misconduct leave themselves open to          ensure that nursing facilities and other
should seek clarification from               undiscovered problems. When a                health care providers are better able to
compliance staff in the event of any         provider learns of certain issues, does it   fulfill their commitment to ethical
confusion or question dealing with           knowingly disregard associated legal         behavior, as well as meet the changes
compliance policies, practices, or           exposure? Is there a correlation between     and challenges being placed upon them
procedures.                                  deficiency identified and the corrective     by Congress and private insurers.
   An effective compliance program           action necessary to remedy? Are              Ultimately, it is the OIG’s hope that a
should include guidance regarding            isolated overpayment matters properly        voluntarily created compliance program
disciplinary action for corporate            resolved through normal repayment            will enable nursing facilities to meet
officers, managers, health care              channels? Is credible evidence of            their goals, improve the quality of
professionals, and other employees who       misconduct that may violate criminal,        resident care, and substantially reduce
have failed to adhere to an                  civil or administrative law promptly         fraud, waste, and abuse, as well as the
organization’s standards of conduct,         reported to the appropriate Federal and      cost of health care to Federal, State, and
Federal health care program                  State authorities? If the process of         private health insurers.
requirements, or Federal or State laws.      responding to detected offenses is
The number and caliber of disciplinary       circumvented, such conduct would               Dated: October 22, 1999.
actions taken by an organization can be      indicate an ineffective compliance           June Gibbs Brown,
insightful. Have appropriate sanctions       program.                                     Inspector General.
been applied to compliance                      Documentation is the key to               [FR Doc. 99–28094 Filed 10–28–99; 8:45 am]
misconduct? Are sanctions applied to         demonstrating the effectiveness of a         BILLING CODE 4150–04–P
all employees consistently, regardless of    nursing facility’s compliance program.
an employee’s level in the corporate         For example, documentation of the
hierarchy? Have double-standards in          following should be maintained: audit
discipline bred cynicism among               results; logs of hotline calls and their     DEPARTMENT OF HOUSING AND
employees? When disciplinary action is       resolution; corrective action plans; due     URBAN DEVELOPMENT
not taken seriously or applied               diligence efforts regarding business
haphazardly, such practices reflect          transactions; records of employee            [Docket No. FR–4432–N–43]
poorly on senior management’s                training, including the number of
commitment to foster compliance as           training hours; disciplinary action; and     Federal Property Suitable as Facilities
well as the effectiveness of an              modification and distribution of policies    To Assist the Homeless
organization’s compliance program in         and procedures. Because the OIG              AGENCY:  Office of the Assistant
general.                                     encourages self-disclosure of                Secretary for Community Planning and
   Another critical component of a           overpayments and billing irregularities,     Development, HUD.
successful compliance program is an          maintaining a record of disclosures and
                                                                                          ACTION: Notice.
ongoing monitoring and auditing              refunds to the health care programs is
